<html>
<title> - WITH CENSUS BUREAU DIRECTOR, DR. STEVEN DILLINGHAM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                        WITH CENSUS BUREAU DIRECTOR,

                           DR. STEVEN DILLINGHAM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                              
                          OVERSIGHT AND REFORM
                          
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2020

                               __________

                           Serial No. 116-91

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      





                  Available on: http://www.govinfo.gov
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                             
                             ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 39-929                WASHINGTON : 2020 
                              
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Ralph Norman, South Carolina
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
                       Russ Anello, Chief Counsel
                          Amy Stratton, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

                                 ------                                
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 12, 2020................................     1

                               Witnesses

The Honorable Dr. Steven Dillingham, Director, United States 
  Census Bureau
    Oral Statement...............................................     5
Mr. Nick Marinos, Director, Information Technology and 
  Cybersecurity, Government Accountability Office
    Oral Statement...............................................     8
Mr. J. Christopher Mihm, Managing Director, Strategic Issues, 
  Government Accountability Office
    Oral Statement...............................................     6
Mr. Albert E. Fontenot Jr., Associate Director, Decennial Census 
  Bureau, United States Census Bureau
    No Oral Statement............................................

*  The prepared statements for the above witnesses may be found 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below may be found at: docs.house.gov.

  * Letter entitled ``2020 Census, District Census Doc''; 
  submitted by Rep. Gomez.

  * Questions for the Record to Dir. Dillingham; submitted by 
  Rep. Grothman.



                      WITH CENSUS BUREAU DIRECTOR,

                         DR. STEVEN DILLINGHAM

                              ----------                              


                      Wednesday, February 12, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn Maloney 
[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Clay, Connolly, 
Krishnamoorthi, Raskin, Rouda, Wasserman Schultz, Sarbanes, 
Welch, Speier, Kelly, DeSaulnier, Lawrence, Plaskett, Khanna, 
Gomez, Ocasio-Cortez, Pressley, Tlaib, Porter, Haaland, Jordan, 
Gosar, Foxx, Meadows, Hice, Grothman, Comer, Cloud, Gibbs, 
Higgins, Norman, Roy, Miller, Green, Armstrong, and Keller.
    Chairwoman Maloney. The committee will come to order. Good 
morning, everyone, and without objection the chair is 
authorized to declare a recess of the committee at any time.
    With that I will now recognize myself to give an opening 
statement.
    Good morning and thank you all for being here today. The 
2020 census is now underway. Two weeks ago, the Census Bureau 
counted its first person in rural Alaska. Next month, counting 
will begin in earnest around our country.
    The Constitution requires us to count every single person 
in the United States, without exception. This census will be 
the largest and most complex in American history, and it is 
essential that the count is full, fair, and free from any 
interference.
    This year's census will have enormous consequences for our 
communities. The results will drive the distribution of more 
than $1.5 trillion in Federal funds. That is trillion, with a 
T. These funds support critical services like children's health 
care, local schools, roads, and bridges.
    Unfortunately, the Administration's preparations for the 
census have been woefully inadequate. Whether through 
incompetence or intentional action, this Administration's 
failures risk causing grave harm to this year's census and 
could jeopardize a complete and accurate count, and these 
problems are now absolutely urgent.
    Today the nonpartisan Government Accountability Office is 
publicly releasing a troubling new report that highlights 
serious concerns about preparations for the 2020 census. We 
will hear from GAO in a moment, but here are some of the most 
concerning findings.
    The Census Bureau, and I quote--this is from GAO--``faces 
significant risks that could adversely impact the cost, 
quality, schedule, and security of the county,'' end quote.
    Quote, ``The Bureau is behind in its recruiting of 
applicants for upcoming operations. If the Bureau does not 
recruit sufficient individuals it may have difficulty hiring 
enough staff to complete its upcoming operations within the 
scheduled timeframes,'' end quote.
    This is particularly troubling. This is a chart that GAO 
has. The red line is where we should be in hiring, at 2.6 
million. We are now at 2.2, getting there. But all of this time 
when they should have been up here they were behind in the 
hiring. That has got to impact, in a negative way, the outcome 
of the census.
    Another quote, ``The Bureau also continues to face 
significant cybersecurity challenges, including those related 
to addressing cybersecurity weaknesses in a timely manner,'' 
end quote.
    And quote, ``The Bureau has missed interim goals building 
toward its overall goal of 300,000 community partners by March 
2020,'' end quote. Many people tell me, at the Bureau, at GAO, 
and everywhere that one of the most important things is having 
these partnerships with the community, because they know the 
community. They know where the people are. They can help get 
the count accurate as possible.
    Today's stark warning from GAO reflects similar concerns 
that this committee has been raising for the past several 
years, with increasing urgency. Last month, we held a hearing 
in which witnesses after witnesses raised dire warnings about 
the Administration's failures to adequately prepare for the 
2020 census. For example, Marc Morial, the President and CEO of 
the National Urban League, testified that the Census Bureau 
should be treating this as a, quote, ``state of an emergency,'' 
end quote. He warned that hiring was far, far behind schedule, 
and, quote, ``it is time to ring the bell'' and that, quote, 
``the risk for the Nation and the risk for our communities is 
grave,'' end quote.
    Vanita Gupta, the President and CEO of The Leadership 
Conference on Civil and Human Rights, testified that an 
undercount would have, quote, ``broad implications for how many 
teachers to students there are in any school district, health 
care, hospitals, roads, infrastructure,'' end quote. She also 
warned, and I quote, ``Stakeholders urgently need more 
information and a deployment plan,'' end quote.
    Arturo Vargas, the CEO of NALEO Education Fund, warned that 
the Trump administration's citizenship question debacle, quote, 
``continues to foster fear and doubt,'' end quote. And this is 
made worse by a hostile environment toward immigrants, 
propagated by the Administration, end quote.
    John Yang, the President and CEO of Asian Americans 
Advancing Justice, testified that the Census Bureau's Language 
Support Program has, quote, ``several gaps that need to be 
overcome and that hiring efforts have been slow and 
inconsistently inclusive of underserved communities.''
    Today we will hear directly from the Census Bureau director 
and we will have a lot of very tough questions for him. There 
are grave challenges facing us in this year's census, and to be 
honest I don't have full confidence that the Administration is 
equipped to handle them.
    Nevertheless, we are committed to doing everything we can 
to highlight these challenges where we see them, work with our 
dedicated colleagues at the Census Bureau and GAO, and 
collaborate with our partners across the country to deliver a 
fair and accurate count. Our Constitution requires it, our 
communities rely on it, and our democracy depends on it.
    And I want to thank, really, all of the witnesses, and 
particularly the director for being with us today, and I look 
forward to all of your testimony.
    I now recognize our distinguished ranking member, Mr. 
Jordan, for an opening statement.
    Mr. Jordan. Thank you, Chairman, Madam Chair. I want to 
thank you for convening this timely and important hearing. I 
want to thank our witnesses, and in particular Director 
Dillingham for taking the time out of his busy schedule, at 
this busy time, to be here and testify today.
    The census is among one of the most important matters 
within our committee's jurisdiction. It is mandated by the 
Constitution to occur every 10 years, and has been conducted 
every decade since 1790. The data collected from the census is 
used to apportion seats in the House of Representatives and to 
distribute more than $600 billion annually in Federal funds to 
states and localities. These numbers also serve as the 
foundation for estimates of current population and for 
projections of future population. For these reasons, it is 
obviously important that the census is accurate and complete.
    Unfortunately, the Democrats on this committee have largely 
ignored their responsibility to oversee preparation for the 
2020 census. Instead, Democrats have needlessly spent our time 
focusing on the citizenship question in an effort to score 
political points. And I must admit that after all this time I 
still do not understand why the Democrats do not want to know 
how many U.S. citizens are living in the United States of 
America. This question has been on our census before. It is a 
question asked by several nations around the world, and it is a 
question that even the United Nations encourages countries to 
ask.
    The Democrats basically argued that the question was 
designed to scare immigrant and racial communities in an effort 
to undercount those populations, but that is simply not 
correct. Census Bureau conducted a test in the summer of 2019 
to study, quote, ``the operational effects of self-response of 
including a citizenship question. The study found that there 
was no difference, no difference in self-response rates between 
forms with and forms without the citizenship question.'' 
Imagine that. Let me say that again. There was no difference in 
self-response rates between forms with and without a 
citizenship question.
    In July 2019, following a Supreme Court decision, the Trump 
administration removed the citizenship question from inclusion 
on the 2020 census. Democrats want you to believe the 
Administration took this action because the citizenship 
question was fundamentally inappropriate and that the Court 
vindicated their position. But, in fact, the Supreme Court held 
that the Trump administration had the authority to add the 
question about citizenship to the census, but took issue with 
the Administration's process for doing so under administrative 
law.
    This is only the third hearing Democrats have called to 
talk about the census since taking control of the House last 
year. Prior to that, Republicans had held nine hearings or 
briefings dating back to 2015, to examine challenges posed by 
the 2020 census.
    We are now in the midst of peak operations for the census. 
On March 12, just one month from today, people will begin 
completing and returning their census questionnaires. This is a 
time when all systems must be fully operational. That 
responsibility, of course, lies with Director Dillingham, and 
certainly it is no small task.
    The Census Bureau needs to hire approximately 500,000 
people nationwide as enumerators to conduct non-response 
followup operations. To reach that number, that hiring target, 
the Census Bureau is conducting a nationwide recruiting 
campaign to generate interest in this temporary work with the 
goal of recruiting 2.6 million interested candidates by March 
2, 2020, just a few weeks from now. I look forward to hearing 
about how those efforts are going.
    Given the enormity of this task and the amount of taxpayer 
resources expended to complete the census, it is imperative 
that we work to avoid wasteful spending in this process. Last 
month, the GAO reported that the Census Bureau had managed 
criteria for reliable cost estimates, the first time the Census 
Bureau has ever met the GAO metrics for reliable cost 
estimates. We are eager to get an update from our GAO witnesses 
this morning about the cost-effectiveness of the census 
operations.
    I hope today that we can do away with the partisan 
theatrics and actually work together to ensure the census is 
complete and accurate. Thank you, Madam Chair, and I look 
forward to testimony today.
    With that I yield back.
    Chairwoman Maloney. Thank you, and I would like to welcome 
our witnesses. The Honorable Dr. Steven Dillingham is the 
Director of the United States Census. Mr. Christopher Mihm is 
the Managing Director of Strategic Issues at the Government 
Accountability Office. Mr. Nick Marinos is the Director of 
Information Technology and Cybersecurity at the Government 
Accountability Office. Mr. Albert E. Fontenot is the Associate 
Director of the Decennial Census Programs at the United States 
Census Bureau.
    And if you would all rise please and raise your right hand 
I will begin by swearing you in.
    [Witnesses sworn.]
    Chairwoman Maloney. OK. Let the record show that all the 
witnesses answered in the affirmative. Thank you, and please be 
seated. The microphones are sensitive so please speak directly 
into them, and without objection your written statements will 
be made part of the record.
    With that, Dr. Dillingham, thank you so much for coming. 
Thank you for your service. You are now recognized for your 
opening statement.

  STATEMENT OF STEVEN DILLINGHAM, DIRECTOR, U.S. CENSUS BUREAU

    Mr. Dillingham. Good morning, Madam Chairwoman, Ranking 
Member, committee members. Thank you for inviting me to testify 
on the 2020 census progress. This census has been planned for 
the past decade. We are confident that we are on mission, on 
budget, and on target.
    As the chairwoman just stated, the 2020 census began a few 
weeks ago in remote Alaska, on the Bering Sea, in the village 
of Toksook Bay. We start early in remote Alaska where 
conditions are severe, the nights are long, and before the snow 
and ice begin to thaw. The village is accessible only by small 
plane, weather permitting.
    On the way, in Anchorage, we met with congressional and 
state leaders, complete count committee, and partners from 
public, private, and nonprofit groups. We attended a church 
service in a diverse community where Father Fred bestowed 
blessings for a safe journey and successful census.
    The next stop was a small, snow-covered village of Bethel, 
where local officials offered us, and local residents, native 
winter gear. When the weather broke we left in small planes 
with skilled, brave pilots. We were the only flights able to 
reach Toksook Bay that day.
    We were greeted by the village elder. I was whisked off on 
a snowmobile to the home of the first person in the Nation to 
be counted. As a census worker I cannot discuss the person's 
data. The person's answers were in Yupik and were translated. 
Upon completion, the person looked into my face, and with a 
warm smile and gleaming eyes reflecting generations of wisdom, 
saying two words, ``Thank you.''
    I was honored to conduct that count. The person was honored 
to be counted. The census is personal and built on trust. That 
is how the 2020 census began.
    As I departed I stopped at the school gym where villagers 
gathered. Children were wearing traditional clothes, performing 
native dance. Excitement was high, the bleachers were filled, 
native food abundant. The village was celebrating the 2020 
census.
    To conduct a successful count it takes a village, like 
Toksook Bay; a town like Bethel or Middlebury, Vermont; a city, 
like New York City or Detroit; and a county, like Broward 
County, Florida; Lorraine County, Ohio; York County, South 
Carolina; and the most populous county of Los Angeles.
    The success of Toksook Bay will be repeated across America. 
Systems have been tested. Recruiting and hiring are on target. 
Partnerships are unprecedented. Innovations and efficiencies 
safe tens of millions of dollars. New options enable people to 
complete the census anytime, anywhere.
    The Government Accountability Office and inspector general 
have reviewed our progress. The 2020 census is positioned for 
success. As in Toksook Bay, it will take trust and engagement. 
The Bureau has responsibility for data collection and 
reporting, but the census does not belong to an agency or to 
the Federal Government. It belongs to everyone and always has. 
It is a national asset.
    Engagement is increasing. We have statewide commissions 
coordinating efforts. We have an army of partners numbering 
more than a quarter of a million, actually this morning more 
than 270,000, and climbing fast. These partners have employees, 
members, and followers numbering in the tens of millions. This 
is the largest civilian mobilization since World War II, due to 
the number of census workers and the enormous public engagement 
that happens during a decennial census.
    We have twice as many partner specialists as before. We 
thank this Congress for augmenting them with thousands of 
mobile assistance to better reach low-response areas. Complete 
count committees exceed 10,000, averaging more than 200 per 
state and dozens per congressional district. Business partners 
range from small to the largest, with many thousands of 
employees.
    Public partners include agencies at the Federal, state, and 
local levels. Faith partners range from single churches to 
entire denominations, education from single schools to school 
districts, colleges from small to the largest university 
systems, with hundreds of thousands of students, faculty, and 
staff, and millions of alumni. We have more than 6,000 higher 
education partners, and the list grows. We want every school 
and every business as a partner.
    Universal bipartisan support brings the Nation together for 
this civic purpose. Governors and local leaders have issued 
bipartisan proclamations of support as did the U.S. Senate. 
Nearly all Members of Congress are partners. Your help matters. 
We need leaders and trusted voices. We must work together to 
foster public trust. We must roll up our sleeves to maximize 
engagement. Our census professionals are confident, excited, 
and ready. All systems are go. The countdown is now. The 
national launch begins in one month.
    Thank you for your oversight, leadership, and strong 
support, and I think we have a couple of short ads from our 
national media campaign that emphasize how easy, safe, and 
important the census is. Our ads will reach 99 percent-plus of 
all households repeatedly.
    [Video shown.]
    Mr. Dillingham. We don't have a prepared statement from the 
associate director.

STATEMENT OF J. CHRISTOPHER MIHM, MANAGING DIRECTOR, STRATEGIC 
            ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Mihm. Chairwoman Maloney, Ranking Member Jordan, 
members of the committee, it is a great pleasure to be here 
today to discuss our work on the census. I am joined, 
obviously, by my colleague, Nick Marinos, and we are honored to 
appear before this committee. We are also delighted that many 
of our colleagues from GAO, whose thoughtful and dedicated work 
has supported the committee's oversight over a number of years, 
are able to join us this morning.
    As has been mentioned a number of times, the census has 
already begun with the enumeration of remote areas of Alaska, 
and we are a month away from the first mailings going out, 
alerting individuals that they can start responding via the 
internet.
    As you know, we added the census to our high-risk list in 
February 2017. Over the past decade, we have made 112 
recommendations on the census, most of which have been 
addressed by the Bureau but some of which remain open. The 
information that Nick and I will present today is based on our 
report being issued today, ``2020 Census: Initial Enumeration 
Underway but Readiness for Upcoming Operations is Mixed,'' and 
I know that each member of the committee has a copy of that 
report.
    I will briefly discuss the status of census operations and 
then Nick will cover IT systems and cybersecurity. In the 
interest of time, obviously, I will just hit three quick points 
that were covered in the report.
    First, the Bureau completed early operations on schedule. 
Last October, the Bureau completed its in-field address 
canvassing operation, where temporary field staff verified and 
updated over 50 million addresses across the country. It met 
its target date for opening its Questionnaire Assistance 
Contact Centers, basically call centers, where the public can 
call to ask questions or provide their census responses. It has 
launched its advertising campaign--you just saw two examples of 
that--to use print, social media, and television to spread word 
about the census and encourage participation. And the Bureau 
has opened all 248 area census offices that will be used to 
manage the decennial at the local level. This is all good, 
important news.
    However, and second, the Bureau is behind its goal to 
recruit applicants to work on the census. The Bureau estimates 
that it will need to hire between 320,000 and 500,000 census 
takers, referred to as enumerators, depending on the response 
rate. While the size of those numbers is daunting enough, the 
Bureau has long found that it needs several times that in 
applicants in order to meet its hiring needs.
    To date, the Bureau has recruited more than 2.1 million 
applicants, while noteworthy, and nonetheless does fall short 
of the interim target it set for itself to reach 2.5 million 
applicants by now, building to, as was mentioned, the overall 
goal of 2.6 million.
    In addition, 202 of the 248 area census offices fell short 
of their individual recruiting targets as of early February. 
This is concerning because if the Bureau does not recruit 
sufficient applicants it may have difficulty hiring enough 
staff to complete upcoming operations, leading to delays, 
increased costs, and eroded data quality. Moreover, as the 
director just noted, the census, while a national effort, is 
implemented locally in communities and neighborhoods across the 
country. Thus, recruitment and hiring success in one area may 
provide little advantage to an area where efforts are lagging.
    Third, the Bureau also missed milestones for establishing 
community partnerships. Partnerships are essential to educate 
the public, encourage participation, and thereby maximize the 
response rate, particularly for hard-to-count populations such 
as persons with disabilities and persons experiencing 
homelessness. Census partners, as was noted, include media 
outlets, civil society organizations, health care 
organizations, and the like.
    The Bureau's goal is to have 300,000 community partners by 
next month. As of early February, it had established over 
238,000 of those. However, this falls short, again, of the 
Bureau's interim goal, which was to have 250,000 partnerships 
in place by the first of February.
    Of course, the quality of the partnerships ultimately 
matters much more than the quantity. The Bureau will have a 
sense of how these partnerships are working from management 
reports that will indicate the number of community partnerships 
and participating organizations by sector, in audiences served, 
and the number of events that the partners have sponsored.
    In summary, Madam Chairwoman and members of the committee, 
while early operations have been completed on schedule, the 
Bureau faces a number of challenges in upcoming major 
operations, as Nick will further elaborate. Perhaps the key 
risk now is the response rate. Longstanding census experience 
has taught me--certainly I began work on the census in the 1990 
census--that high levels of public participation improve data 
quality, limit cost, and reduce schedule pressure.
    This completes my prepared statement and I would be happy 
to answer any questions you may have.
    Chairwoman Maloney. The next speaker.

STATEMENT OF NICK MARINOS, DIRECTOR, INFORMATION TECHNOLOGY AND 
        CYBERSECURITY, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Marinos. Chairwoman Maloney, Ranking Member Jordan, 
members of the committee, thank you for inviting GAO to discuss 
preparations for the 2020 census. As Chris mentioned, our 
latest report highlights a number of IT-related challenges 
facing the Bureau. These include IT systems readiness and 
cybersecurity.
    Stepping back for a moment, I wanted to highlight the 
complexity of administering the 2020 census from an IT 
perspective. As you know, the Bureau is tasked with collecting 
information from over 100 million households across our Nation, 
and to do within constitutionally mandated timeframes. To make 
it all happen, the Bureau will rely on 52 systems to support 
census operations. Many of these systems will be deployed 
multiple times in order to add needed functionality over the 
course of 16 operational deliveries.
    To the Bureau's credit, by the end of last month it had 
successfully deployed systems for five operational deliveries, 
including in support of address canvassing and recruiting and 
hiring activities. However, the Bureau continues to face 
schedule risks for 5 of the remaining 11 operational 
deliveries, including for systems supporting internet self-
response.
    The Bureau, in fact, recently identified a scalability 
issue that was preventing it from meeting its goal of having up 
to 600,000 users be able to concurrently access the internet 
response system without experiencing performance problems. As a 
result, the Bureau decided late last week that it will instead 
use its backup system to manage internet responses for the 2020 
census. Late design changes such as a shift from one system to 
another can introduce new risk during a critical moment.
    The internet response option is scheduled to be available 
to the public in exactly one month from today. Therefore, the 
Bureau needs to quickly ensure that the system is ready and 
that contingency plans are finalized to reflect this change, 
and fully test it before going live.
    With respect to cybersecurity, the Census Bureau, like all 
Federal agencies, faces a growing number of cyber threats. Web-
based attacks and phishing campaigns have become commonplace in 
our world, and they pose a serious challenge to economic and 
national security and to personal privacy. In light of this 
growing threat, GAO has designated cybersecurity as a 
governmentwide high-risk area since 1997.
    To its credit, the Bureau has made progress in assessing 
the security of its systems and authorizing them to operate. In 
addition, the Bureau continues to leverage the expertise of 
DHS' Cybersecurity and Infrastructure Security Agency, known as 
CISA, to conduct cybersecurity assessments and provide 
consultative support.
    Nonetheless, significant challenges still remain and the 
Bureau needs to continue taking steps to fully protect 2020 
operations. Specifically, the Bureau needs to maintain its 
focus on security improvements called for by its own 
assessments and those conducted by CISA. We previously 
recommended that the Bureau improve its ability to address its 
security to-do list in a more prioritized and timely way. The 
Bureau agreed with us and is working to fully implement our 
recommendations.
    The Bureau should also maintain its vigilance in light of 
the risk of disinformation on social media. The Bureau has been 
actively coordinating with social media platform providers and 
plans to roll out education and communication campaigns to 
respond to this risk. We think such activities are essential.
    In summary, the technology innovations that the Bureau 
plans to rely on for the 2020 census create opportunities for 
increasing efficiency and effectiveness of the count. However, 
they also bring with them significant IT and cybersecurity 
risks. Ultimately, the success of operations in the upcoming 
months will be directly tied to how the Bureau continues to 
manage these risks.
    Madam Chairwoman, this concludes my statement. Thank you.
    Chairwoman Maloney. Thank you very much. Thank you to all 
of the participants today. And Dr. Dillingham, this new report 
from GAO we just heard is very troubling, and just like the 
witnesses that we heard from, I guess it was last month, this 
new report seems to be sending flashing red lights, warning 
that the Census Bureau simply is not ready for what is about to 
happen, this important challenge before us.
    Now in this new report, and in the testimony we just heard, 
they warn of inadequate recruitment and hiring, missed target 
dates, insufficient progress working with community partners, 
and significant cybersecurity challenges, and I could say the 
list goes on and on and on.
    I want to give you a chance to respond. I know GAO gave you 
and gave us the report a week ago. So, why is the Census Bureau 
so far behind in so many aspects of the preparations across the 
board? Mr. Dillingham--Dr. Dillingham?
    Mr. Dillingham. Madam Chairwoman, it is a very good 
question, and let me say that from the point of view of the 
Census Bureau, we are not behind. And let me show you some 
charts. We provided members with charts today as to where we 
are.
    The first chart we have is the recruiting chart. Now the 
recruiting chart, as pointed out by GAO, is based on self-
response rates. We have three scenarios here. Now the figures 
being cited, which we did develop ourselves, very ambitious 
goals, the worst-case scenario, if our self-response rate drops 
to 55 percent, which no one expects, but if it did we would 
want 2.7 million people recruited from which we would hire 
about a half million people. That is the worst-case scenario.
    The next scenario is the 60.5 percent, and that is probably 
the more reasoned scenario, in which case we would hire 320,000 
people.
    Now as of this morning we have 2.3 million completed 
applicants, 2.5 million that have started their applications, 
and it is increasing about 20,000 a day. We will meet--we will 
meet the worst scenario goal by the first week of March, and 
then we are going to surpass it. There is no doubt. We would 
like--we currently have about four applicants for every 
position. We want five applicants. We actually would like more. 
So, we are going to have those applicants, and so the 
recruiting--that is the first thing I will address.
    Chairwoman Maloney. What about the number of partners 
compared to the goal?
    Mr. Dillingham. Sure. Let me show you, Madam Chairwoman, on 
that.
    Our partners, and again, we supplied you with these 
figures, here is where we are. Now we had a straight line kind 
of. We have very ambitious goals. We set them up intentionally 
as being ambitious, to make sure we get the job done.
    Chairwoman Maloney. I see the chart, Dr. Dillingham, and I 
just want to point out that if we had been going on the red we 
would have had more preparation in place. I only have a few 
minutes because we keep very strict time, so I want to get to 
GAO to respond, if I could. But I think if we had hired we 
would have been in a better place right now. You are catching 
up, good, but during this period the outreach to the 
communities, as I understand it, if you are a rural community 
or a hard-to-reach community, the most important thing is 
getting these partnerships, because they are the ones who know 
the people, they know how to get the count.
    So, I would like GAO to respond, if you could, Mr. Mihm. In 
your report you warned that the Census Bureau is, and I picked 
a quote out, quote, ``faces significant risk that could 
adversely impact and cost quality, schedule, and security of 
the count,'' end quote. I want to know, is that right, and 
would you elaborate a little bit?
    Mr. Mihm. Yes, ma'am, that is right, and on two of the 
points that the director was just mentioning on that, it is 
noteworthy and positive that the recruiting numbers are going 
up, and that is exactly where we would want them to be, and 
they are some ambitious targets.
    But what we have seen with census experience, certainly in 
the three or four of them that I have been responsible for 
assisting the Congress in oversight, is that you can bleed 
through your recruitment base very, very quickly, and, not 
unexpectedly, you have turnover in that.
    And so the second part of that is that the national 
numbers, we focus on those, obviously, and the Bureau does as 
well, but that is not, as the director mentioned, where the 
census is implemented. It is implemented at a local level, and 
so it is concerning for us that you have those 200 of 248 local 
offices that haven't met their own targets on that, because 
that----
    Chairwoman Maloney. On that point----
    Mr. Mihm. Yes, ma'am.
    Chairwoman Maloney.--and I want to quote from your report, 
you said the Bureau is behind, quote, ``in its goal to recruit 
more than 2.6 million applicants nationwide for upcoming 
operations.'' And then your report said that 2.1 million 
applicants recruited as of February 3, 2020, fall short of the 
Bureau's larger target to reach more than 2.5. Are those 
numbers correct, and could you elaborate a little bit?
    Mr. Mihm. Yes, ma'am. I mean, they were correct, as the 
director noted. This is very much a moving target with 
literally thousands of new applicants every day. But as of even 
earlier this week they were the correct numbers that we 
received from the Census Bureau.
    Chairwoman Maloney. OK. You know, and also you missed--this 
quote, I think, is an important one, because I think that one 
of the most important parts about the census is having these 
community partnerships----
    Mr. Mihm. Yes, ma'am.
    Chairwoman Maloney.--in place. And your report finds you 
missed interim milestones for establishing community partners. 
Is that right, and how damaging is that? And my time has 
expired after you respond.
    Mr. Mihm. Yes, ma'am, it is a concern, because certainly in 
the environment that we are now, now the larger cultural 
environment is that we need people to be encouraged to 
participate in the census, as you saw from the ad that the 
director showed, to believe in the integrity of their data. 
This is what partnerships do, is that they are trusted voices 
in the community that can tell people you need to--we need to 
participate--they use the ``we'' language. We need to 
participate. It is good for us, good for the community, and 
your data will be protected. That is not something that can 
come out of Washington or Suitland, Maryland. That has to come 
from trusted local voices. That is the importance of the 
partnerships.
    Chairwoman Maloney. Thank you so much. I now want to 
recognize the gentleman from Wisconsin, Mr. Grothman. He is 
recognized for really six minutes, because I talked for six 
minutes.
    Mr. Grothman. Oh my goodness.
    Chairwoman Maloney. So, you are recognized, and I thank all 
of you. We all have the same goal, to get an accurate count.
    Mr. Grothman. Sounds like a basketball player calling a 
foul on themselves. I can't believe it. Thank you. Very honest.
    Mr. Dillingham, first of all I want to nail down who we are 
trying to count here. OK, if I am tourist, do we count a 
tourist?
    Mr. Dillingham. We do not count tourists.
    Mr. Grothman. OK. If I am a college student who is here for 
six months, do we count the college student?
    Mr. Dillingham. We count college students if they are 
living here at the time of the census. And so the six-months is 
a close call there as to how long they will be living here.
    Mr. Grothman. OK. Well, if I live in--if my parents live 
in--well, pretend I am 18 again--if my parents live in 
Wisconsin and I go to college in Illinois, am I counted in 
Illinois or Wisconsin?
    Mr. Dillingham. The methodology that was used for decades 
is we count where people are living. So, we actually count at 
the college campus.
    Mr. Grothman. OK. So, then how do we make sure then the 
people isn't counted in that case, in Wisconsin? If the parents 
fill out the form and say, ``Sonny is with me,'' and somebody 
else is going around to the college dorm at the University of 
Illinois, how do we make sure that that person is not counted 
twice?
    Mr. Dillingham. Congressman, that is a very good question 
and we have very elaborate procedures, and that is one place 
where we really rely on our administrative data, that sort of 
behind the scene we are matching up. So, if there is a 
duplicate submission, if the college student answers the census 
at the university or the college, and then the parent maybe 
answers on their behalf, back in the hometown, we reconcile 
that and we eliminate that.
    Mr. Grothman. And you are confident you can do that?
    Mr. Dillingham. Yes, we can.
    Mr. Grothman. How about if somebody just goes somewhere to 
live with a buddy for a month?
    Mr. Dillingham. We do ask the individual where they are 
living, and we will, you know, probe as to where they are 
living, and where they report as being living that is where we 
count them.
    Mr. Grothman. How about if I am a tourist but overstay my 
visa?
    Mr. Dillingham. If you are a tourist and you tell us that 
you are here only temporarily, as a tourist, that is the 
information we have, and if you are from another country then I 
would assume that to be correct.
    Mr. Grothman. OK. How about if I am here just illegally and 
I should be leaving? At what point is that somebody who is 
countable?
    Mr. Dillingham. Congressman, we count everyone, wherever 
they are living.
    Mr. Grothman. OK. So, if I am a diplomat am I counted?
    Mr. Dillingham. Congressman, there are some very narrow 
exceptions that if you are a living at a consulate then we 
don't count people that are actually at the consulate, which is 
owned by the other country.
    Mr. Grothman. OK. How about if I am not living at a 
consulate? How about if I am living here in town but work at a 
consulate and I am stationed here for four months?
    Mr. Dillingham. Congressman, the four-months would 
probably--if you are here on April 1, and you answer that you 
are living here, and do not indicate, when we ask the 
questions--and I am going to ask the person with the most 
experience here who actually oversees the census--but that is a 
question where we probe further as to the length of time you 
are living here and in what capacity.
    Mr. Grothman. This is kind of scary because we are not 
nailing this down.
    Go ahead, Mr. Fontenot.
    Mr. Fontenot. Mr. Congressman, the question is asked, 
``Where do you live or stay most of the time as of April 1?'' 
and our census relies on self-declaration. So, if the person 
says, ``I live or stay at this address most of the time, as of 
April 1,'' they are counted at that address.
    Mr. Grothman. OK. And ``most of the time'' could mean I am 
returning to France in a month, but I should still put down 
that I am a U.S. citizen? Most of the time, what, over the last 
week? Over the last five years?
    Mr. Fontenot. Generally we use a guideline of around six 
months.
    Mr. Grothman. OK. So, if I am a diplomat who is here for 
six months and a day I am supposed to be counted.
    Mr. Fontenot. That is correct.
    Mr. Grothman. And is that clear on the form?
    Mr. Fontenot. It is clear in the additional instructions to 
the form. We provide----
    Mr. Grothman. OK. Now----
    Mr. Fontenot [continuing]. Our online----
    Mr. Grothman [continuing]. Yep----
    Mr. Fontenot [continuing]. Census would provide dropdown 
information. It gives you details in the dropdown information 
of exactly how to answer the question.
    Mr. Grothman. I am going to ask you this. It seems to me 
when cheating goes on, and, of course, what people are worried 
about here is cheating in elections, usually people--there is 
at least a perception that people vote twice or that sort of 
thing.
    What are you doing to make absolutely certain that if 
somebody, say, wants to say more people are living in a state 
than are, that somebody is not filling out that form three 
times under three different names? How do we know that is not 
happening?
    Mr. Fontenot. We have very elaborate post-collection de-
duplication processes which use administrative records, prior 
census information, IRS data, to verify that we are only 
counting people one time. This is not a unique and new process.
    Mr. Grothman. Well, I am going to ask you again. I am glad 
I have the extra minute. Thank you. If I am somebody on a farm 
in California and somebody fills out the form for me, and one 
day I am John Smith, and then I fill out the form on Ted Jones, 
and then I fill out the form on Billy Johnson, how do we know 
that somebody isn't sitting there cheating and filling out 
under three different names?
    Mr. Fontenot. We compare the census data we receive to 
other data we already have on that area--population estimates, 
other survey data--and if there are abnormalities in the count 
we are able to detect them at that time. And then we actually 
will send someone out to verify those people's identify. A 
person will physically go out and verify.
    Mr. Grothman. If I do that, how is that going to be caught? 
If I am somebody who wants to cheat, if I am somebody who wants 
to say there are more people in such-and-such a county in 
California than there are, and I sit down and fill out the form 
under 10 different names----
    Mr. Fontenot. We send out an enumerator to actually verify 
that you exist at that address?
    Mr. Grothman. So, everybody is going to get somebody to 
show up and count that person? I mean, if I live in Greenbush, 
Wisconsin, is somebody eventually going to count me, or no?
    Mr. Fontenot. Yes.
    Mr. Grothman. There will be a person who looks at me in 
Greenbush, Wisconsin, you are telling me.
    Mr. Fontenot. To verify that your data--if you data is 
inconsistent with what----
    Mr. Grothman. No, not inconsistent. Not inconsistent. I am 
not saying inconsistent. I am saying I just sit there and fill 
out 10 forms of 10 names that were not in the United States 10 
years ago, are you going to catch that?
    Mr. Fontenot. Yes. That would be inconsistent data. That 
would come up. Our post-collection processes would bring that 
information to the light. That is when we send people out to 
verify.
    Mr. Grothman. OK. I will give a written question later, but 
thank you very much for giving me the extra minute.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentlewoman from the District of Columbia, Ms. Norton, is 
recognized for five minutes.
    Ms. Norton. I thank you, Madam Chair. This is an important 
hearing, and I am particularly interested in the notion that 
the census is going digital, and that for the first time people 
are going to be asked to respond on the internet. I must tell 
you, the Iowa primary debacle comes to mind when I think of the 
census going digital. So, I am interested in the Bureau's plans 
in the event that the systems, in fact, experience some kind of 
attack or disaster.
    The IG wrote something that really terrifies me. The 2020 
census cloud environment did not have disaster recovery options 
capable of restoring data lost in the event of a large-scale 
attack or disaster, which suggests lost data that we could 
never recover. And, of course, the inspector general made 
several recommendations.
    I suppose I should ask you, Mr. Dillingham, have you made 
upgrades to ensure that the data would not be lost in the event 
of a disaster? Can you assure us that you could always recover 
data?
    Mr. Dillingham. Congressman, we remedied all of the issues 
that were pointed out by the inspector general, and we have 
satisfied with the testing of our system, and we do have 
redundant storage.
    In the event that there was some type of a catastrophe in 
which people could not reply online, and our associate director 
can address this, he can tell you how many millions of 
additional forms that we have prepared on paper, and we are 
ready to mobilize a different process to people who could 
respond on paper. But we don't foresee that happening in any 
way, and in no way is that comparable to what happened----
    Ms. Norton. But I am talking about data that is lost. I am 
talking about recovering data, not people who are using pen and 
pencil, but recovering data from people who have used the 
internet to respond.
    Mr. Dillingham. I can assure you----
    Ms. Norton. Who have digitally responded, I should say.
    Mr. Dillingham [continuing]. I can assure you that we have 
worked with the best minds in the private industry and the best 
in the intelligence communities, and our systems are 
continuously monitored 24/7.
    Ms. Norton. So, if you lost data--let me ask the inspector 
general. Are you satisfied that at some point all data could be 
recovered if there was some attack or some kind of disaster?
    Mr. Marinos. Well, Ms. Norton, the report that you referred 
to was from the IG. GAO has also been on record as emphasizing 
the importance of contingency planning, so that disaster 
recovery planning. We mentioned in our report that we are 
issuing today that we are still waiting to see the Bureau 
finalize their plans, and as I mentioned in my opening 
statement, this is especially important given that we are just 
one month away from internet self-response going live. So, it 
is important for the Bureau not only to document what it is 
going to do in the event that a primary system needs to fail 
over to a backup system, and so that is why we continue to 
emphasize that as a key point.
    Ms. Norton. All right. I looks like we don't have the 
contingency. We don't have any way to recover data that is 
lost, and that--I have been waiting for that response, that 
report. Yes, Mr. Fontenot.
    Mr. Fontenot. Yes, Congressman Norton, if I may, we store 
the data in multiple areas in the cloud to ensure security, and 
we back that up regularly. We can recover data if we had a 
breach or a situation like that, that would----
    Ms. Norton. That is really all I want to know.
    Mr. Fontenot. Yes, ma'am.
    Ms. Norton. If you are assuring us that you can always 
recover data.
    Mr. Fontenot. And in the worst case we would send someone 
out to recollect that data.
    Ms. Norton. But I want to ask you, though--I want to ask 
you because I am waiting for this report that you say is coming 
in--I was concerned with a testimony we have received from the 
National Latina Elected and Appointed Officials, and this is 
what they say. ``I firmly believe that we need a Plan B and 
that the Census Bureau needs to make sure it has adequate 
supply of paper forms at the ready should something happen and 
the computer load capacity not work, as we saw previously in 
health.gov.''
    So, I am going to ask Mr. Marinos, does the Census Bureau 
currently have enough paper forms to use in the event of a 
system failure?
    Mr. Marinos. They do, Ms. Norton. So, I think it is 
important to note that the internet self-response option is 
just one of many ways that the public can respond to the 
survey. And I can defer to the Bureau for the specifics, but 
what I can convey is that their approach to how they are going 
to interface with the public is directly tied to the 
availability of the internet within those areas. So, the 
approach that they may take may include actually providing a 
written form, a paper form, for someone to fill out, or may 
have a postcard first be the thing that gets sent to encourage 
folks to go online.
    In the event that someone does not respond to the survey 
online, the Bureau has plans to eventually provide them with a 
paper form, and if they don't fill that out have an enumerator, 
have a counter actually knock on their door.
    Ms. Norton. That is reassuring. Thank you, Mr. Chairman.
    Mr. Lynch.
    [Presiding.] The gentlelady yields. The chair now 
recognizes the gentleman from Kentucky, Mr. Massie, for five 
minutes.
    Mr. Massie. Thank you, Mr. Chairman. It looks like a lot of 
the contingencies depend on the self-response rate. How did you 
estimate the self-response rate, and how do you think it is 
going to change this decade because of the internet option? 
Either Mr. Dillingham or Mr. Fontenot.
    Mr. Fontenot. Congressman, we estimate the self-response 
rate based on a number of historical census work we have done. 
The 2010 census was a starting point. We looked at the 2016 
test, the 2018 test, and a test we did in 2019, and we also 
conferred with our colleagues from other censuses throughout 
the world. One of the things we are seeing on a global basis is 
people's propensity to respond to surveys and censuses has 
declined over the last two, three decades, and therefore we are 
projecting 60.5 percent response rate, which is lower than the 
total response rate we had in the 2010 census at the same point 
in time.
    To tie to the chart we had over there--I am pointing to 
air, but to tie to the chart we had over there, the top line 
assumed a 55 percent self-response rate, which is lower than 
any of our models projected. Our models tend to project the 
midrange expected rate just over 60 percent.
    Mr. Massie. How does the response rate, the self-response 
rate, differ between the short form and the American Community 
Survey?
    Mr. Fontenot. The American Community Survey, as you know 
now, was offered in every county in the country, and has two 
modes. It used to have three modes. It has two modes. It is 
sent out in paper form and then we send out an actual field 
representative to collect the data. The completed response rate 
for that is in the 90 percent range, but the self-response rate 
for mail-back is lower than we would expect for a census. A 
census is basically a 10-question form versus the multipage 
American Community Survey.
    Mr. Massie. Right. I have got a copy of both and it looks 
like if I got this in the mail it would take me--I would put a 
lot more thought into it before I responded on my own.
    Mr. Fontenot. And it is a lower response rate than we get 
on censuses. Correct.
    Mr. Massie. If somebody gets the long one in the mail----
    Mr. Fontenot. They don't get that as part of the census. 
They get that as part of the American Community Survey.
    Mr. Massie. OK. So, it is in addition. It is not one or the 
other.
    Mr. Fontenot. That is correct. Prior to 2005----
    Mr. Massie. Everybody gets the short one.
    Mr. Fontenot [continuing]. Prior to 2005 that was the 
census long form.
    Mr. Massie. OK. Gotcha. That helps a lot. And what is your 
goal on response rate for the ACS?
    Mr. Fontenot. I can get back to you on that.
    Mr. Massie. OK.
    Mr. Fontenot. Our total response rate goal is over 90, but 
that includes the people going around knocking on doors to 
collect data.
    Mr. Massie. So, I was able to go to the internet and try 
out at least the front page of this on my mobile device, and I 
am glad to report I could see it, even on an antiquated mobile 
device, although it had that Captcha, you know, the ``I am not 
a robot'' thing at the front of it. And the house admin here 
required I put that on my congressional page, and I don't want 
it on my page because I know a lot of people give up when they 
get to that Captcha thing. And I know it is for internet 
security, but, Mr. Mihm, do you anticipate that is going to 
slow down the response rate? Is that ``I am not a robot'' 
thing, is that on the short form when you go to respond?
    Mr. Mihm. My understanding is that that is not on the 
census form.
    Mr. Massie. OK.
    Mr. Mihm. The issue you are raising, sir, is exactly right. 
In prior censuses we used to have two forms. We had the short 
form, the one that you are holding there, and a version of the 
American Community Survey, called the long form. The response 
rates were like 10 percentage points difference on that.
    Congress and the Bureau said this is--you know, it is 
taking too much time and effort in the context of the decennial 
census to do the long form. Let's strip that out and have a 
completely different survey on a different timeframe, and that 
is the American Community Survey that you are referencing 
there.
    And so the 10 or so questions on the short form are now the 
only form. That is what, as was mentioned, the Bureau is 
looking for a 60.5 percent response rate.
    Mr. Massie. Can people use their telephone to do the short 
form?
    Mr. Fontenot. Yes, sir.
    Mr. Massie. OK.
    Mr. Fontenot. For the census we have three ways to 
respond--online, by phone, or on paper.
    Mr. Massie. OK. Well, that sounds good to me. Is there a 
way to ensure integrity of the data as the deadline approaches? 
Let me just tell you a story, and this may be a apocryphal, 
okay. But a census worker that I know, back in the community, 
either 10 or 20 years ago, said when they got toward the end of 
the census the manager said, ``Just drive by and count the 
number of bicycles in the yard and take a guess on how many 
kids are there.''
    Now, what I am concerned about is as the deadlines 
approach, the integrity of the data goes down. The example I 
gave you is anecdotal and maybe it happened, maybe it didn't. 
But I am sure there is a lot of pressure toward the end to skip 
a few steps. And maybe that is designed into the system. You 
know, maybe a little bit a day is better than none. But what 
are the steps that you are taking to make sure when you get 
toward the deadlines that they don't start cutting too many 
corners?
    Mr. Fontenot. We are working very closely with the managers 
of the local census offices and the census field supervisors to 
ensure that process is followed throughout the census.
    Now, to your point, if we have a person that is only 
willing to give some data toward the end of the census, we will 
take the data that they provide, because, truly, the purpose of 
the census is to get a population count for apportionment of 
the seats in the House. So, we will take partial data, but 
actual respondent data or proxy data or administrative record 
data.
    One of the things that enhances our ability to get verified 
data in 2020 is we are using administrative records, the data 
the government has collected for other purposes, to be able to 
fill in places where we do not get people's responses.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Lynch. The gentleman yields. The chair now recognizes 
the gentleman from Maryland, Mr. Raskin, for five minutes.
    Mr. Raskin. Mr. Chairman, thank you very much. This 
committee has been focused like a laser beam on the census. We 
have a constitutional duty to make sure that all persons are 
counted in the United States. This is necessary for fair 
elections. It is necessary for fair and efficient distribution 
of governmental resources. So, we have been focused from the 
beginning on this. Any suggestion that this committee is 
somehow responsible for the problems experienced by the Census 
Bureau is, of course, absurd.
    It was the Trump administration, not this committee, that 
tried for nearly a year to add an illegal citizenship question 
to the census, and, of course, was tied up in courts for months 
until the Supreme Court did the obvious and struck down the 
citizenship question as completely outside of the normal 
administrative process. The Administration should have been 
focusing on preparing for the census and dealing with all the 
complexities of the census rather than advancing this flawed 
and doomed political agenda.
    But this committee has been focused on preparing for the 
census as a top priority for more than two years now. On March 
6 of 2019, we held a hearing on GAO's high-risk list and 
highlighted concerns about census preparations. On May 29, 
2019, our Subcommittee on Civil Rights and Civil Liberties, 
which I chair, held a hearing in New York at the intersection 
of the districts of Chairwoman Maloney and the vice chair of 
our subcommittee, Ms. Ocasio-Cortez, on what states and local 
communities are doing to prepare for the 2020 census and how 
they can be more actively engaged in the process.
    On July 24 of last year, the subcommittee held another 
hearing and heard testimony from the director of the Census 
Bureau and the GAO, and on January 9 of this year, the 
committee held a hearing with experts and advocates on the risk 
of an undercount, and what we are doing to combat it. And on 
January 21 we wrote a letter to the Census Bureau seeking 
documents on critical aspects of census planning, including 
hiring technology and planning for potential disasters. Our 
staff has held more than 20 briefings with the Bureau and the 
GAO during this Congress alone.
    So, I am proud of the work that this committee has been 
doing to ensure that the 2020 census is a success. I am proud 
that we helped to overcome the Administration's outrageous 
attempts to sabotage the census with its illegal citizenship 
question that was struck down by the U.S. Supreme Court.
    Dr. Dillingham, I wanted to ask you a question. I have 
heard from some of my constituents that the Census Bureau may 
be placing ads with media outlets that are primarily owned or 
influenced by the Chinese government in the Asian American 
community. They appear to be suggesting that Chinese 
government-influenced companies have somehow gotten the market 
on our census outreach in the Asian American community. And I 
am just wondering if you know anything about this, and what the 
Bureau might be doing to make sure that the media companies 
that we are using are based in the United States and free from 
foreign government influence.
    Mr. Dillingham. Sure. First, Congressman Raskin, let me 
thank you and let me thank all the Members of Congress from the 
state of Maryland, and there have been--both with this 
committee and the former chairperson of this committee, I have 
appeared in Baltimore with him and with others. I have been to 
your district. We met with the entire Maryland delegation and 
we very much appreciate your commitment to getting a full 
count.
    Now with regard to--and I understand it was either in the 
press or in the social media, about this Chinese influence. The 
information I received it was absolutely false. We had no 
contract with that entity, and there was no media engagement 
with that foreign-owned entity whatsoever. But we can provide 
you details on that, but I am told that story was absolutely 
false.
    But to the larger question of our media campaign, this is, 
in fact, the largest media campaign ever for the decennial 
census, and it is very important that we get it right. The 
commercials, we had two this morning, and I think they captured 
some attention from some of the people in the room, but we have 
dozens upon dozens of advertisements. We have contracts with 
all sorts of firms that reach the hard-to-count communities and 
reach the diverse communities, and we are very proud, and we 
have very specifically tailored advertising, even in certain 
languages, that reach those communities.
    But I noticed when we went to your community, for example, 
you have a very diverse community. You have an area, if I could 
use the term, it is called Korean Corner. And in that area 
there was local newspapers at the supermarket, et cetera, and 
we discussed, with a partnership specialist, the possibilities 
of how we can get some of our advertising into that local 
media, in the channels that they use, and in the publications 
and other--and the radio stations and stuff that they may be 
listening to.
    So, we will be glad to work with you. We are working with 
you. We have heard of tremendous progress being made in your 
district and the state of Maryland, and we still have work to 
do.
    Mr. Raskin. Well, and I appreciate that very much. I 
appreciate your openness and your willingness to work with 
communities such as ours. And I would just encourage you to 
make sure that the media outreach is as diverse as possible, as 
you are suggesting, and that we not be captured by any 
particular group, certainly if it is influenced by foreign 
government. Again, I don't know if there is a reality there but 
there is certainly word in the community about that, so I 
appreciate you clearing it up.
    I yield back.
    Mr. Lynch. The gentleman yields. The chair now recognizes 
the ranking member, the gentleman from Ohio, Mr. Jordan, for 
five minutes.
    Mr. Jordan. Thank you, Mr. Chairman. It sounded like, Mr. 
Dillingham, or Director Dillingham, when GAO gave their opening 
comments that it was sort of good news/bad news. The good news 
is the Census Bureau, I think you said, Mr. Mihm, that early 
operations are on schedule, and that is great and 
congratulations on that. But then on the number of applicants 
you need, to get the employees you need, it sounded like you 
were behind in both numbers--2.5 million you need in 
applicants, over half a million you need of actual enumerators, 
people out doing it. It sounds like you are behind on the 
partnership issue, and then, of course, Mr. Marinos talked 
about IT and cybersecurity concerns as well.
    So, I just want to give you a chance to say, are you going 
to get there? Congratulations on being there on the early stuff 
but now it is the real deal, and frankly I think Members of 
Congress and the country would like to know that you are going 
to get there. And you had some charts up earlier but I just 
want to give you a chance to respond to those. It seems like 
four issues were raised and three of them we have got some 
concerns, so talk about that those three.
    Mr. Dillingham. Sure.
    Mr. Jordan. And then if we want GAO to jump in and tell me, 
I want to know if you guys think they are going to get there.
    Mr. Dillingham. I thank you very much, and certainly would 
enjoy them--I certainly invite them to also join in as needed.
    You know, I said, to begin with we set very ambitious 
goals, and one of the goals showed a straight line to reach the 
worst-case scenario. We operate by three scenarios, but we want 
to make sure we recruit people the worst-case scenario, the 2.7 
million. We will reach that in the first week in March, and we 
are going to exceed that.
    Mr. Jordan. OK.
    Mr. Dillingham. So, we have 2.3 million applicants already, 
completed applications, 2.5 million have begun. So, we are 
quite confident. These people are not yet being hired. They are 
going to be enumerators. So, we are very pleased and we are 
going to exceed that goal, on the recruiting and hiring.
    On the partnerships, the same thing. We are going to exceed 
our goals, yes, and we appreciate GAO. We provide them with the 
information of our schedules and our goals, and they look at 
it, and they will remind us, ``Oh, you didn't meet your goal 
here.'' And they will say, ``Whenever you don't meet your goal, 
that presents a risk,'' and to some extent they are right, and 
we appreciate that.
    But, you know, when we started the census, and we had the 
original plan, we had more than 27,000 tasks to do, and we have 
schedules for those tasks, and we have testings of our system, 
25,000 tasks. So, when we get down to the fine numbers it is 
very important, and we do work, and whenever they identify a 
risk we address those risks. And I think they will tell you we 
have a very good track record.
    So, our systems are tested. Recruiting is going to exceed 
our most ambitious goal. Our partnerships already surpass the 
last decennial census, by the point they had reached at the end 
of the census, and we are a month out before we even do the 
first mailing.
    So, we are way ahead of what is needed. Did we deviate from 
the schedule?
    Mr. Jordan. Applicants, employees, or numerators--you feel 
good, and you feel good about the partnership as well.
    Mr. Dillingham. Absolutely.
    Mr. Jordan. Tell me about the IT concerns. Have you got 
any----
    Mr. Dillingham. The IT----
    Mr. Jordan. And then I want to give GAO a chance to tell me 
if you are giving it to us straight, which I assume you are, 
but give them a chance to respond.
    Mr. Dillingham. With our IT I can tell you that we have not 
missed any operational or testing deadlines for the 2020 
census. There are the risks, as I pointed out, any time we have 
anything pending, and so we are on a track. But all 2020 census 
IT systems have been successfully tested and deployed, or are 
on track for deployment.
    For example, we have a system that will deal with the post-
enumeration survey, which is after the completion of the 
census, to double-check, another way of looking at our numbers. 
Now we have tested that system in the past and it worked, but 
we are going to test it again.
    Mr. Jordan. OK.
    Mr. Dillingham. So, we feel very comfortable. The 
professional census has a high degree of confidence.
    Mr. Jordan. Thank you, Director, and I appreciate all the 
hard work. I know you are working hard. I want to give GAO the 
last minute to respond.
    Mr. Mihm. Thank you, Mr. Jordan, and I know Nick will talk 
about the IT in just a moment. The good news is we are working 
off with the Census Bureau is a common set of facts, and so we 
would agree with him on the data on that point. On the other 
hand, I am from GAO and I am paid to worry on your behalf.
    So, I think the big concern that we have operationally is 
that these numbers can be looking good at a top level, even 
though we haven't met some interim goals. But the concern is 
the response rate. It is--the 60.5 percent, which is what they 
are hoping to achieve, would still have a 61 million households 
for followup. You can bleed through a recruitment base very, 
very quickly in hiring the enumerators for that. And so--and if 
it gets up to obviously the 55 or it goes as low as the 55 
percent, which would be, you know, very bad, as the Bureau 
mentioned, you are at 66.7 million households that you would 
have to followup on.
    So, in a month from now, or, you know, six weeks from now, 
when we start seeing the response rate, that is going to really 
give us all a good feeling or a really similar concern. And I 
know Nick will talk about the IT.
    Mr. Marinos. I think the title of our report talks about a 
mixed preparedness, and I think that is fair, because in many 
ways the positives are there. We have seen the Bureau able to 
successfully, you know, deploy dozens of systems in support of 
five of the operations to date.
    The reality, and where the risk is, and where my worry 
resides is just in the time, right. We are sort of in a 
pressure cooker of time to get a lot of things done, and the 
Bureau has, in particular, two key operations coming up in just 
the next couple of months. You mentioned in your statement as 
well, Mr. Jordan, about the fact that we are one month away 
from internet self-response, and we are also just over two 
months away from the beginning of the enumeration process too. 
So, the Bureau has a lot of work ahead of it to complete the 
testing that it is done.
    Now, to its credit, and accurate to what Dr. Dillingham has 
said, they have put a lot of effort into that testing. And, in 
fact, what I mentioned earlier about the decision to switch 
from one system to another was the result of the rigorous 
testing that they Bureau is undertaking.
    So, at the end of the day I think the risk still exists 
because of the amount of work that the Bureau has to do within 
a short period of time.
    Mr. Jordan. Thank you. I yield back. Thank you, Mr. 
Chairman.
    Mr. Lynch. The gentleman yields. The chair recognizes the 
gentlewoman from Florida, Ms. Wasserman Schultz, for five 
minutes.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Dillingham, I think we can agree that the stakes are 
too high for the Census Bureau to have a one-size-fits-all 
approach to advertising and community outreach, and I can 
certainly appreciate that you have a large volume of community 
partnership relationships.
    In my district, Florida's 23d, I am proud to represent a 
majority minority community that is filled with people from all 
over the world, including the largest concentration of 
Venezuelans, for example, of any other district. Effectively 
communicating and building trust with my constituents is going 
to be notably different in terms of the way we connect with 
them and reach out to them than it would be just a few miles up 
the road on 95.
    I am very concerned that the Census Bureau has not taken 
seriously your responsibility to understand all the communities 
that you must reach to have a complete and accurate count.
    Now we know one way to build relationships in hard-to-count 
communities is to enlist local businesses, for example, and 
groups to be Census Bureau Ambassadors. Dr. Dillingham, the 
House Democratic Caucus, the Tri-Caucus, and the Census Caucus 
wrote you recently requesting information on the status of the 
Bureau's Community and National Partnership Engagement 
Programs, and asked for a response by December 13, 2019. The 
answer that you finally provided just last night was nearly two 
months late and woefully incomplete.
    The letter requested a list of the name and location of 
every local partner organization in the United States, 
organized by congressional district, which I know is entirely 
possible. We have gotten it before. You responded by saying the 
work is still ongoing, because that list is growing, and you 
have committed to only release organizations that, quote, 
``have given permission to be listed as a public partner.'' 
That is baffling, because if you are a public partner one would 
think that you would be public. It is a little tough to know 
how to partner with an organization that is not willing to make 
themselves known.
    So, what exactly is the purpose of having a community 
partner to help promote the importance of filling out the 
census if that partner is not public? And Census Day is less 
than eight week away, so when will you commit to providing the 
complete list of local partners, broken down by congressional 
district, because for all of us it is important for us to know 
who we can work with in our local communities. I have been very 
engaged in my, you know, my Count Committee locally, and it 
would be really helpful to know which organizations in my 
district have had a formal relationship with you. And will you 
also provide information about how you define what you consider 
to be a local partner, because that would be helpful too.
    Mr. Dillingham. Congresswoman, let me first begin by saying 
that I was in Broward County. The partners there were 
absolutely fabulous.
    Ms. Wasserman Schultz. I agree.
    Mr. Dillingham. When I went to the Broward County complete 
count committee, we actually ran out of time when they were 
going over all the contributions that all the members of that 
committee are meeting. The room was filled with partners.
    Ms. Wasserman Schultz. Right. I know, Dr. Dillingham. We 
have a very well-organized complete count committee.
    Mr. Dillingham. Yes.
    Ms. Wasserman Schultz. I have been very much a part of 
that, and helped launch it.
    Mr. Dillingham. Absolutely, and you----
    Ms. Wasserman Schultz. I would like an answer to my 
question.
    Mr. Dillingham. OK. And you defined the responsibility and 
need absolutely correctly. I agree with you. On the----
    Ms. Wasserman Schultz. Everyone isn't as supportive of it 
as I am.
    Mr. Dillingham [continuing]. We hope to get--when people 
completed, over the past year or so, signed up as partner, I am 
informed that we need to double-check. Some may not have given 
us permission, at the time, to go public, but my understanding 
is----
    Ms. Wasserman Schultz. You realize that makes no sense, 
right?
    Mr. Dillingham [continuing]. My understanding is we will be 
releasing those documents. They are under review.
    Ms. Wasserman Schultz. When?
    Mr. Dillingham. And that is beyond----
    Ms. Wasserman Schultz. When?
    Mr. Dillingham [continuing]. I hope today----
    Ms. Wasserman Schultz. And why did it take----
    Mr. Dillingham [continuing]. Or tomorrow----
    Ms. Wasserman Schultz.--why did it take until two days ago 
for you to respond to a letter that we asked for a response by 
December 13?
    Mr. Dillingham. Well, I think one of the current issues is 
the release of that information, which is under review.
    Ms. Wasserman Schultz. OK. That doesn't make any sense. The 
length of time since the letter was sent----
    Mr. Dillingham. Sure.
    Ms. Wasserman Schultz.--until two days ago is more than 
enough time. Up until the December 13, you had more than enough 
time to get the answers to the questions, to get permission 
from the public organizations that are partners on the census.
    Mr. Dillingham. Sure.
    Ms. Wasserman Schultz. Otherwise they shouldn't be partners 
if they are not willing to make their names public. And again, 
the census is less than eight weeks away. If you are really 
committed to reaching hard-to-count communities, then we need 
that information right now.
    Mr. Dillingham. I agree to do whatever I can to get you 
that information as soon as possible.
    Ms. Wasserman Schultz. OK. So, today is Wednesday. Can we 
be assured of having it by Friday?
    Mr. Dillingham. Congresswoman, it is in a review process 
that I do not control.
    Ms. Wasserman Schultz. OK. Well, who does control it?
    Mr. Dillingham. All documents that leave the Department of 
Commerce go through a review process.
    Ms. Wasserman Schultz. I understand. Who controls whether 
and when that information is released to the public, to Members 
of Congress, so we can make sure that we can maximize the count 
of hard-to-count communities?
    Mr. Dillingham. Congresswoman, I will certainly----
    Ms. Wasserman Schultz. You can't tell me who it is--who is 
in charge? Who is in charge of giving you permission to release 
that information? And is it actually finished and they are just 
not letting you release it?
    Mr. Dillingham. Congresswoman, I will have to get back to 
you.
    Ms. Wasserman Schultz. Is it finished and you are being 
told you cannot release it?
    Mr. Dillingham. I would be totally honest if it was--if I 
knew the answer.
    Ms. Wasserman Schultz. You don't know who it is?
    Mr. Dillingham. It is in review process.
    Ms. Wasserman Schultz. I am sorry.
    Mr. Dillingham. When it gets through the review process----
    Ms. Wasserman Schultz. Are you honestly telling me that you 
don't know who is in charge of letting you know that you can 
release it? You don't know or you won't tell me?
    Mr. Dillingham. I will let you know when I get the 
determination that it is releasable. I actually expect it very 
soon.
    Ms. Wasserman Schultz. No. I want you to let me know now 
who is preventing you from releasing it? Who is--who do you 
answer to that is directly responsible for telling you you can 
release the information? Who? Position, title, name?
    Mr. Dillingham. Congressman, I honestly do now know what 
was involved in the review process.
    Ms. Wasserman Schultz. OK. You are the Director of the 
Census and you don't know who is responsible for reviewing the 
items that you have been asked to produce for the Congress?
    Mr. Dillingham. Congresswoman, I know that ultimately 
people review it and look to see that it is in accordance with 
law and whatever rules and regulations may apply. And I am not 
fulfilling that legal responsibility----
    Ms. Wasserman Schultz. You know you were sworn in at the 
start of this hearing, right, and that you are supposed to be 
telling the truth to our committee when we ask you questions?
    Mr. Dillingham. Absolutely, Congresswoman.
    Ms. Wasserman Schultz. It really is hard to believe that 
you don't know who is responsible for reviewing the materials 
that you need permission to release when we ask for them.
    Mr. Dillingham. Congresswoman, I could generally refer to 
people that are normally in the review process, and it is 
usually people with legal responsibilities.
    Ms. Wasserman Schultz. How are you going to get the 
permission if you don't know who to go to?
    Mr. Dillingham. It will be communicated back to us when the 
review is completed. I do not foresee delay.
    Ms. Wasserman Schultz. OK. We are eight weeks out from the 
census, so I would like an answer today when the information is 
going to be released, so we can effectively work across the 
districts in the United States of American, with our public 
community partners, and the Director of the Census Bureau 
allows them to be public. Can you commit to that?
    Mr. Dillingham. Congresswoman, it is not that I am stopping 
anyone. You work with them each and every day. You know many of 
them.
    Ms. Wasserman Schultz. I don't know who they are.
    Mr. Dillingham. And they can certainly----
    Ms. Wasserman Schultz. That is my question.
    Mr. Dillingham [continuing]. They can certainly----
    Ms. Wasserman Schultz. No, no, no, no.
    Mr. Dillingham. Yes.
    Ms. Wasserman Schultz. I don't know who they are. That is 
my question. You know who they are, and you are not providing 
the information to our Tri-Caucus, to our CBC, to our Census 
Caucus. And you can't even tell me who it is that is holding it 
up or who is responsible for reviewing it.
    Mr. Dillingham. Congresswoman----
    Ms. Wasserman Schultz. That is outrageous.
    Mr. Dillingham [continuing]. We will review the process----
    Ms. Wasserman Schultz. It is a deliberate obstacle that you 
are throwing in the path of trying to make sure that we can get 
hard-to-count communities counted, and that is obvious. I would 
like an answer----
    Mr. Dillingham. Congresswoman, I disagree----
    Ms. Wasserman Schultz.--By the end of the week.
    Mr. Dillingham [continuing]. With that characterization. 
There is no deliberation. I would prefer that you get the list 
today.
    Ms. Wasserman Schultz. OK. Well, then please ask whoever--
send it up the food chain and try to figure out who it is that 
is responsible for it, and let us know as soon as possible.
    Mr. Dillingham. I will----
    Ms. Wasserman Schultz. Thank you, Madam Chair, for your--
Mr. Chairman. I yield back. I appreciate your indulgence.
    Mr. Lynch. The chair will afford equal time to the minority 
with respect to questioning.
    The gentlelady yields and the chair recognizes the 
gentleman from Louisiana, Mr. Higgins, for five minutes.
    Mr. Higgins. Thank you, Mr. Chairman. Gentlemen, thank you 
for your endeavor to serve our country by delivering an 
accurate census count. Let me say that I believe sometimes we 
can get a little too close to a particular mission and we lose 
the 30,000-foot view. And perhaps this committee has been 
overly focused on one particular aspect of the census count or 
another. And I believe, as laws cite, exactly if we are 
addressing the cultural change in our country since the last 
census a decade ago, and despite the best efforts of the entire 
census endeavor, including you gentlemen, and the many, many 
scores of thousands of men and women that will attempt to serve 
and gather data, I believe when we reconvene next year, those 
of us that do, I think we are going to reflect upon this time 
and wonder how we missed it so much.
    The last decade in our Nation has seen an incredible 
saturation of social media and communications, interactions 
that we have not seen prior, and one of the aspects of that 24/
7 unending communications is the criminal endeavor, which every 
American has been touched by. Over 10 years you had untold 
millions of Americans have been victims of scams. Whole 
government entities at the municipal, state, and Federal level 
have fallen prey to scam, ransomware, et cetera.
    Our American culture has been subjected to a continuous 
barrage of criminal endeavor, all of which begin with the 
request for personal information. A decade ago, when someone 
knocked on your door, you answered your door. A decade ago, if 
your phone rang, you answered the phone. This has changed.
    So, I ask you, Mr. Dillingham, what is the census doing? Is 
there an awareness of this? How are you going to penetrate this 
culture of protection and secrecy that we have rightfully, as 
an American citizenry, that we have responded to the barrage of 
criminal attack that has been made manifest over the last 
decade, how are you going to get through that? We have not 
discussed this in this panel. This highly impacts the elderly 
in our country. I believe we are going to reflect upon this 
census effort a year from now and find it to be a failure 
because we have failed to address this cultural change. I ask 
you for a response, Mr. Dillingham.
    Mr. Dillingham. Thank you very much for your statement of 
some of the problems with regard to security and fraud, et 
cetera. Let me begin to frame it at a higher level first, and 
then our associate director, with many years of experience in 
this can tell you what we are doing on the front line to combat 
fraud and scams and that sort of thing.
    It is very important, and as one of the commercials earlier 
showed, that we protect the information that comes to the 
Census Bureau. And we have an excellent track records. We have 
stringent Federal laws that subject you to years in prison, 
anyone who violates it. That has not happened. Congress passed 
laws in the 1950's, under Title 13, to protect the privacy and 
confidentiality of our data.
    However, I think you are bringing up also what about in 
conducting the census, are there opportunities for fraud, or 
attempted fraud, and I think that our associated director can 
tell you, from the front line----
    Mr. Higgins. No. I am asking how are you going to conduct a 
census in a nation where our culture has changed regarding the 
wiling dissemination of our personal data.
    Mr. Dillingham. Sure.
    Mr. Higgins. If the phone rings now and it is not a known 
contact, nobody in here answers the phone. If someone knocks on 
your door, your elderly mom or pop, and they don't know who 
that is, they don't answer the door, or they call the police. 
How are you going to penetrate this?
    Mr. Fontenot. Congressman, if I may, I think there are 
three primary things that we are focused on. No. 1, you need to 
have voices that people trust in the community, be they 
pastors, be they community leaders, be they Congresspeople. 
Your staff are trusted voices. If you have been an elected 
official, by your people, they trust you.
    So, we are saying, how do we, No. 1, get the trust----
    Mr. Meadows. That may be a bridge too far.
    [Laughter.]
    Mr. Fontenot [continuing]. Saying that it is important for 
them to participate and that their data is safe?
    The second thing is the people going around knocking on 
doors are from the community. The key to census hiring is 
hiring people who live in the local community who are familiar 
with the local community, who speak the languages, and can go 
around and knock on the doors.
    Mr. Higgins. Is there a plan to reach through those 
avenues, sir, through pews and pulpits?
    Mr. Fontenot. Yes, absolutely. We have a faith-based 
program----
    Mr. Higgins [continuing]. And town halls----
    Mr. Fontenot [continuing]. Of how we talk to pastors, get 
churches engaged, get churches engaged as partners. We have an 
initiative, which is called Mobile Questionnaire Assistance, 
which the Congress actually mandated that we set up for 2020, 
and funded with $90 million in the last appropriation. The 
Mobile Questionnaire Assistance allows the census person to go 
to grocery stores, to assembly areas, where people are 
assembled, with a device, and work with the people to actually 
take their enumeration. Ideally they will work with the 
partners and the community organizations in that neighborhood 
to say, ``All right. What is good time? Can we assemble? Do you 
have a church tea? At the VFW hall? At some event, and we will 
be there. We can talk about how your information is safe. We 
can take your information right there, at that point in time.''
    Mr. Higgins. Well, I hope it works. We shall see. We all 
want an accurate count. Thank you, Mr. Chairman, for your 
indulgence. I yield.
    Mr. Lynch. The gentleman yields. The chair now recognizes 
the gentlewoman from Illinois, Ms. Kelly, for five minutes.
    Ms. Kelly. Thank you, Mr. Chair. This year marks the first 
time the census will be conducted mostly online, yet almost a 
quarter of American adults do not have access to high-speed 
internet at home. This digital divide affects people of rural 
areas who are less likely to have broadband access than other 
Americans. My district is urban, suburban, and rural, and I 
have done about six census briefings across my district, and 
when we had the census briefing in my most rural area the 
gentleman from the census said 40 percent of the people don't 
have access to the internet. And, of course, as you know, this 
is not just a rural issue, because I have had people in the 
city of Chicago that don't have access.
    According to data from Pew Research, 44 percent of adults 
who earn less than $30,000 do not have broadband service at 
home. Around one-third of Hispanic and black adults also lack 
home broadband access. And only 59 percent of Americans 65 
years and older have home broadband.
    So, while the internet will make it easier for some people 
to participate in the census, I am concerned that relying on 
internet self-response will make counting hard-to-count 
populations even harder.
    So, Mr. Dillingham, what is the Census Bureau doing to make 
sure that those homes without broadband access are counted in 
2020, including those who live in areas where the Bureau is 
using internet self-response?
    Mr. Dillingham. Congresswoman, thank you so much for that 
question, and we have been in areas of New York and across the 
country where the connectivity rates are low. Even in Alaska, I 
can tell you stories there.
    We are doing a lot, but keep in mind that one of the 
important features of this census is people can answer in three 
different ways. They can get on their phone, even a hard line. 
It doesn't have to be a smart phone. Or they can answer on the 
internet with a smart phone or with a computer, or they can do 
it on paper.
    So, in those areas that we have already determined the 
connectivity is low, and our associate director can give you 
great details on this, we are identifying those 20 percent of 
the country where, in our first mailing, we send out the paper. 
We send it out on paper. Now other areas we send it out on the 
fourth mailing, and we do a total of five mailings if we 
haven't heard from people. So, that is one way.
    But in areas like New York City, et cetera, we have 
partners all across the Nation. The American Library 
Association has asked all of its member libraries across the 
Nation to open their doors, and I have been to those libraries. 
It is so important. And that is a way that people can--but it 
is just not the libraries. It is the businesses, et cetera.
    When I was in Baltimore, Maryland, they wanted a storefront 
operation where people could come in and be assisted. We don't 
do that. But in meeting with the mayor, former Senator from 
Maryland, the former chair of this committee, et cetera, we 
identified, in one day, going through the hard-to-count 
communities, 80 different locations where people could use the 
computer. So, if they want to use the computer there will be 
more avenues than ever. At the same time, they can make a 
simple toll-free call, they can do it on the way to work. We 
don't want them to do it while driving a car. And they can 
submit their information that way, or they can do it on paper, 
and if they don't then we send someone to collect it from them.
    Ms. Kelly. And also, this year the Census Bureau is using 
Mobile Questionnaire Assistance Centers to provide on-the-
ground help for those who are struggling with their form. 
However, to my knowledge, the Bureau has yet to release plans 
for the locations of these Mobile Questionnaire Assistance 
Centers. So, will these be available in areas with limited 
broadband access?
    Mr. Dillingham. They will, and we can give you a lot of 
details and would be glad to brief you on that. But what we do, 
one of the primary benefits of this, we can take the technology 
into the communities and reach the hard-to-count, at events, et 
cetera.
    Now one of the things that we, and associate director can 
tell you our schedule, we will start out in those low-response 
areas. But wherever--we work with our partnership specialists 
and the community--wherever there is an event, where everyone 
points to a need, that you can reach these people. For example, 
in the city of Detroit, it happened to be a donut shop. We can 
bring the technology there and assist the people.
    Ms. Kelly. OK. And then what efforts are you making to 
educate individuals on how to fill the forms out, like, you 
know, seniors or those with low English proficiency?
    Mr. Dillingham. So, basically in our communications 
campaign we kind of present an easy picture for them, but if 
they have specific questions there are toll-free numbers. We 
have 10 Customer Assistance Centers around the country, with 
9,000 employees, taking the calls and giving assistance.
    Ms. Kelly. OK. Thank you. I yield back.
    Mr. Lynch. The gentlelady yields back. The chair recognizes 
the gentleman from Kentucky, Mr. Comer, for five minutes.
    Mr. Comer. Thank you, Mr. Chairman. I know we are all 
concerned a potential undercount. When the census was completed 
10 years ago, immediately groups were claiming there was a 
massive undercount. If you recall, can you answer this 
question. The estimated undercount 10 years ago, were those 
predominantly rural, were they urban, or was it a mix, or do we 
know?
    Mr. Dillingham. Let me start and then the specifics, 
associate director can answer. You are exactly right. We have 
to make sure that everyone is counted, and that undercount is 
we are pulling out all the stops to reach both with the 
technology the hard-to-count areas but also working with our 
partners across the Nation that are so dedicated. And we have 
got--we can tell you all those partners, the pediatrics groups, 
et cetera, but let me turn it over to Al and he will give you 
some more specifics.
    Mr. Fontenot. Congressman, the largest areas of undercount 
were actually demographic minorities, Hispanic, African 
American, males, ages 18 to----
    Mr. Comer. How do you know those were undercounted?
    Mr. Fontenot. By very large numbers those were 
undercounted, yes. That is where the majority of your 
undercount lies.
    You know, if I look at urban versus rural versus suburban 
versus even the reservation areas, and I look at that, it is 
not a consistent picture across those geographic type of areas. 
For example, some states with large undercounts have primary 
rural populations. Others are among our best counted in the 
country. So, there is no consistency like that across.
    Mr. Comer. Will there be----
    Mr. Dillingham. Can I add one thing?
    Mr. Comer. Yes.
    Mr. Dillingham. A lot of people do get confused with self-
response and undercount. So, when communities, the hard-to-
count, are not self-responding, some people call that an 
undercount. But at the end of the day, when we send the 
enumerators around, we are going to get as close as possible to 
a complete count.
    Mr. Comer. Will there be a process to where before the 
final count is official maybe you, I don't want to say leak, 
but you disclose, all right, this is what it looks like it is 
going to be in California, or this is what it looks like it is 
going to be in Kentucky, and then if there are groups that feel 
undercounted, whether they be groups in rural America or 
minority groups they can have an opportunity to protest or 
challenge that count?
    Mr. Dillingham. No, Congressman. This is the count. But one 
of the things that we do, as we analyze the data and determine 
the response rates, and make sure we have accurate data, et 
cetera, we do a very extensive post-enumeration survey that is 
totally independent, that we match up with our results to see 
how close they match. The last decennial census they came very, 
very close.
    Mr. Comer. All right. Mr. Chairman, I would like to yield 
the balance of my time to my friend from Kentucky, Mr. Massie.
    Mr. Lynch. The gentleman is recognized.
    Mr. Massie. Thank you, Mr. Comer. Mr. Higgins touched on a 
great point when he was here, that the culture has changed in 
the last 10 years. People don't answer phone numbers that they 
don't recognize. People don't open doors for people that they 
don't know. And that is going to present a problem for you.
    But something else has changed over the last decade. The 
scammers have gotten better at getting people to respond to 
their scams. And I am worried that they are going to take 
advantage of your advertising campaign and they are going to 
target people to collect their information, or to get their 
foot in the door.
    And so, in fact, I even saw a congressional piece of mail 
that came from a congressional office that was made to look 
like a census, so that they would get a better response rate 
from constituents and collect their emails. There was no 
nefarious purpose there, but it is well known that people do 
respond to the census, more than a random email from somebody.
    So, what are you doing to prevent it, but most importantly, 
how fast are you going to be able to respond to these scams? I 
have seen people use my name in mailings to try and get $20 
from somebody to track their Social Security form or whatever. 
And my frustration has been, and this is a tremendous 
frustration with Facebook, it takes them days to stop a scam, 
and then the scam starts up again because they were making 
money.
    So, if the chairman would indulge the witnesses and myself 
to give them time to answer this question, can you tell me what 
you are doing to prevent the scams, and what does your response 
team look like, and what is your response rate going to be?
    Mr. Dillingham. We are very concerned about that issue as 
well, and I can tell you that we have a 24/7, what we call a 
Fusion Center, that is manned with personnel, that is 
continuously monitoring those activities. We meet every day on 
those activities. We do have agreements with one of the 
technology firms you just mentioned, as well as others, in 
responding to it, as well as with the Federal agencies.
    So, there are ways, and particularly with social media, 
that we can correct the record. We can overcome the negative 
with more positive and correct information, as well as having 
some of those service providers, like Facebook and others, take 
the information down.
    So, we work with them. We have been working for them and 
planning with them for many, many months, and we are monitoring 
on a real-time basis each and every hour of every day.
    Mr. Massie. My time has expired, but thank you, Mr. 
Chairman.
    Mr. Lynch. The gentleman yields. The chair now recognizes 
the gentleman from California, Mr. Rouda, for five minutes.
    Mr. Rouda. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here today.
    Dr. Dillingham, I just wanted to get a better understanding 
of some of the outreach efforts to reach those that don't have 
English as their primary language. My understanding is that one 
in five people in America have a primary language other than 
English that they speak at home, and that there are 
approximately 400 languages and dialects here in the United 
States.
    I represent part of Little Saigon in Orange County, which 
is the largest Vietnamese population outside of Vietnam, and, 
you know, many of the individuals there are refugees who, not 
only is Vietnamese their primary language, it is their only 
language that they speak. Yet I know that from the paper census 
we are only in English and Spanish, and that there are efforts 
to reach those through the internet, but often people don't 
have access to the internet.
    So, what resources is the Census Bureau using to reach 
those individuals who obviously aren't English or Spanish, so 
the written ballot doesn't help, and also have challenges 
accessing the internet?
    Mr. Dillingham. That is a very good question. We are doing 
more than ever before in that area. Actually, we provide 
assistance in English and 12 other languages, and then we have 
materials in 59 languages. So, we reach more than--far more 
than 99 percent of the population with our language assistance.
    However, as you mentioned, you mentioned 400 dialects, et 
cetera. I saw figures recently that even the people that we 
have hired, that we are hiring to work, represent 500 languages 
and dialects. I didn't know there were that many. I knew there 
was over 100, but there are many out there. And we will find--
if we find an individual that we have, there is a language 
problem that doesn't fall within our materials, doesn't fall 
within the assistance we provide, we will find an expert, 
usually from an educational community or someone from that 
person's community, to assist us to reach that individual, 
particularly when it comes down to the actual enumeration.
    But we are also doing outreach with our communications 
campaign. We are developing more and more materials, and we 
have focus groups, more than 120 focus groups, with a lot of 
those groups that have special language needs.
    Mr. Rouda. Doctor, if I could interrupt, could you maybe 
bring that home in the sense for my community in Little Saigon? 
What exactly is being done on the ground to make sure that we 
are getting everyone there engaged and counted?
    Mr. Dillingham. Well, one of the things certainly, and I 
will turn it over to Mr. Fontenot, but we have our partnership 
specialists from those communities, and we hire our enumerators 
from those communities. So, that is actually one of the best 
ways. But there are some others that perhaps our associate 
director would like to mention.
    Mr. Rouda. Thank you.
    Mr. Dillingham. I think Dr. Dillingham hit on the two key 
ones, that the partnership specialists that are hired to work 
in that community are familiar with that community, they are 
from that community, they are fluent in the languages in that 
community. But our effort is to make sure we hire enumerators 
who also speak the language, because they are from the 
community.
    In case of, point of fact, in Los Angeles, the regional 
director of the Los Angeles region, Julie Lamb, is a Vietnamese 
refugee, so she has a high sensitivity for your specific 
community. But it is just not that community. We are looking at 
every one of our diverse communities in terms of how can we 
make sure that the people that come work in that community 
relate to the people who live in that community, that they 
understand our languages, they understand our customs, and they 
are able to effectively take the census message in.
    Mr. Rouda. Now let me ask you, going back to those who 
don't speak English or Spanish as their primary language but 
have access to the internet. My understanding is that there are 
tutorial videos, but there are only two tutorial videos, 
Spanish and English. This seems like a pretty easy lift on 
behalf of you guys to be able to address this by adding 
additional videos in other languages. Is there a commitment to 
do that?
    Mr. Fontenot. There are videos in other languages than 
Spanish and English, yes.
    Mr. Rouda. There are. In how many, roughly, if you know?
    Mr. Fontenot. I will have to get that number and get back 
to you.
    Mr. Rouda. OK.
    Mr. Fontenot. All 59.
    Mr. Rouda. I am sorry?
    Mr. Fontenot. All 59.
    Mr. Rouda. All 59 primary languages are now with videos.
    Mr. Fontenot. Have a video, yes.
    Mr. Rouda. That is great to hear. Thank you. I appreciate 
that.
    And then, last, I know that we have had some difficulty and 
some discussions about guides available to Native Hawaiian, 
Pacific Islander languages and the Navajo, the only Native 
American represented. Has that changed? Is that being addressed 
to make sure that those subsets of the U.S. demographics are 
being addressed?
    Mr. Fontenot. The primary way we are going to reach those 
subsets of the demographic is through hiring people from those 
communities and using their language skills to help us actually 
be effective in those areas.
    Mr. Dillingham. And let me just add one thing. In working 
and visiting in Hawaii, with some of those language challenges, 
we actually have partners in Hawaii, and one of the great 
contributions they make is that on their own they will 
translate the promotional material. So, we do count on our 
partners to assist. This is one of the most valuable areas of 
assistance from our more than quarter of a million partners, is 
the language assistance.
    Mr. Rouda. Well, thank you for your answers, your hard 
work, and your commitment, and, Chairman, I yield back.
    Mr. Lynch. The gentleman yields back. The chair now 
recognizes the gentlewoman from West Virginia, Mrs. Miller, for 
five minutes.
    Mrs. Miller. Thank you, Mr. Chairman and Ranking Member 
Meadows, and to all of you all for being here today.
    Over the past year, we have met in this room to hold 
hearings on the census. Unfortunately, due to the aggressive 
partisan hearings that have dominated our attention, I feel 
like our duty to conduct oversight over the census has been 
severely lacking. We only have a month to do until our 
constituents will begin responding to this very, very important 
government program, and I truly hope that our efforts have been 
enough.
    My district is a representation of how difficult the census 
can be to complete. Language is not an issue, but four of the 
18 counties in my district have 100 percent of the population 
living in hard-to-count neighborhoods. I have spent the last 
year visiting every one of my 18 counties and I can tell you 
first-hand how very rural my community is.
    It is critical that we count each and every one of our 
constituents, no matter how difficult it may be, and I thank 
you, Mr. Dillingham, and all of you for being here today to 
answer our questions and our concerns, and I think you are 
doing a very good job.
    Mr. Dillingham, in rural areas what is the Census Bureau's 
plan to target those constituencies that are like mine?
    Mr. Dillingham. Congresswoman, we very much are engaged 
with trying to reach those rural communities, and we know that 
West Virginia has some particular challenges, particularly with 
connectivity is one of the major challenges.
    Our partnership program is one that is very important, that 
we have partners all through every state. You have the Complete 
Count Committee. We have our partners. But we are trying to 
reach, in many different ways, and in administering the census 
we focus on the hard-to-count, with some of the new 
technologies that we have. When we have these mobile assistance 
that can go out into those communities and they will collect--
help with the collection of the information, and we have the 
partners in those communities, like the American Library 
Association, et cetera.
    So, I know that your community already has a lot of 
partners, but we will work with them and make sure that 
wherever they identify that need that we can respond to that 
need, and that is why when we have these mobile resource 
capabilities and we have a capability of monitoring, real-time, 
during the census, our roam tool, which will show, in each 
track, what the response rate is. And that will allow us to 
say, oh, in this particular track, within West Virginia, we 
need to devote more resources and we need to get there with our 
mobile assistance and help them with the census.
    So, those are some of the ways, in addition to the 
communications campaign that we have, where we do by radio, by 
newsprint, and other ways to reach those populations, as well 
as the groups. There are many groups in the rural areas that we 
work with that have agricultural connections, or perhaps in 
West Virginia with mining communities and other activities and 
professions in West Virginia. We will work through those, and 
that is why business partners are also very important.
    Mrs. Miller. Ironically, yesterday I was dealing with an 
individual who can't get electricity to his home because you 
have to go through several properties, and then you have to go 
through a mining area. And I'm thinking, how do you count those 
people when they don't even have electricity? So, that is 
important.
    Many of them have low mail-back response rates in 2010. 
Have you learned from those challenges a strategy for targeting 
those with households that have very, very low mail-back?
    Mr. Dillingham. Congresswoman, we do, and maybe our 
associate director will add some more detail. But we start out 
particularly looking at the last decennial census, and we 
identify those low-response areas. We also, as was mentioned 
earlier, we have the American Community Survey. That also 
details for us each year what the response rates are in those 
communities and what some of the challenges are. So, we use 
that data. We have a data-driven response to reach those hard-
to-count people.
    But let me ask our associate director if he has more to add 
on that.
    Mr. Fontenot. Congresswoman, one of the things that we do 
is increase the number of enumerators that are going to be 
working on the street in your community and non-response 
followup, because we know that historically you have had some 
low response rate areas, and therefore it says that means I 
need to put more people on the street there.
    So, our efforts are to make sure we hire enough people from 
those communities to actually go around and knock on the doors 
and collect the data and non-response followup, which is the 
next phase.
    The other thing that the director mentioned, and I had 
mentioned earlier too, was our Mobile Questionnaire Assistance, 
which is designed to enhance self-response by sending census 
people out early to go around and spend time with the local 
communities, helping them take their response on census 
instruments, or if they are in areas of connectivity, using the 
phone.
    I do know the connectivity problems in your state. I spent 
time at Beckley when we were doing the test, and I spent a week 
there, wandering around, and lost connectivity many times. So, 
yes, we are aware of those challenges, and we believe that 
putting people on the ground directly will counter some of 
those challenges.
    Mrs. Miller. I appreciate that. I have run out of time. 
Thank you. I yield back.
    Mr. Lynch. The gentlelady yields. The chair recognizes the 
gentlewoman from Michigan, Ms. Tlaib, for five minutes.
    Ms. Tlaib. Thank you, Mr. Chairman. We are all rightfully 
concerned about communities like mine that are at serious risk 
of being undercounted in the 2020 census. But something I am 
particularly concerned about is the lack of representation on 
the form of people who look like me.
    Starting in 2015, a research effort spanned years under the 
previous Administration, led by the Office of Management and 
Budget, by community organizations like ACCESS and the Arab 
American Institute, and many others, which pushed to add the 
new category to the 2020 survey called Middle Eastern/North 
African, or what we call MENA.
    In 2015, Director, the category went into the field for 
testing, and based on the findings the Census Bureau 
recommended the inclusion of the MENA category in the 2020 
census. Despite these findings, however, the Census Bureau 
announced, under the current Administration, that MENA category 
would not be included in the census.
    Dr. Dillingham, do I look white to you?
    Mr. Dillingham. Congresswoman, I think that if you tell me 
what you identify with I think I would respect that.
    Ms. Tlaib. Sure. So, Director, are you aware that people 
like me who are Arab, Middle Eastern, North African, have to 
indicate that they are white on the U.S. census?
    Mr. Dillingham. Congresswoman, we actually have on the--and 
I understand, you know, that there was a process in deciding, 
certainly before I got to the census, and there is a history to 
coming up with the questions and the race and the ethnicity 
categories, and the OMB----
    Ms. Tlaib. No, they ignored it.
    Mr. Dillingham [continuing]. But----
    Ms. Tlaib. Doctor, before you--but they ignored it. The 
previous Administration decided to put MENA on the form. They 
ignored it. But do you think if I circled white category, that 
would be an accurate depiction of my racial and ethnic 
background?
    Mr. Dillingham. Congresswoman, we do not second-guess what 
you put down.
    Ms. Tlaib. OK. Well, then----
    Mr. Dillingham. And we have a write-in. We do have a write-
in----
    Ms. Tlaib. Director, you are not giving me an option, 
because let me tell you, there is a reason why the 
recommendation happened, because would circling white on the 
census changed my lived experience as a person of color in our 
country? Right? Even saying that, you understand there is a 
difference when you actually have the check-off box.
    Because the MENA community, like others, relies on accurate 
census representation for health research, Director, language 
assistance, civil rights laws, and reporting educational 
outcomes. In addition, it would help address things like crime 
reporting, Director, helping minority business owners get 
loans, and drawing congressional and state legislative 
boundaries.
    So, Director, do you believe it is important to better 
collect racial and race information from census participants of 
Middle Eastern and North African descent?
    Mr. Dillingham. Congresswoman, I----
    Ms. Tlaib. You believe that, though.
    Mr. Dillingham [continuing]. I can say that by having the 
write-in provision, that is the option----
    Ms. Tlaib. Sir, it doesn't have the same impact, and you 
know that. You know that. That is why the community pushed to 
add the category of MENA, and they did it right. They went 
through the process, and they got it approved. And this 
Administration decided to ignore them and to make them 
invisible again, right? That is what you are doing. You are 
making us invisible. No, the continued absences of this ethnic 
category contributes to erasing us, our living, working--we all 
live and work and raise our families here.
    I truly believe this issue needs to be addressed, and we 
need your leadership to push back against this current 
Administration's lack of wanting to see people like me being 
represented on an official government Federal form, that 
decides around funding, decides how they are going to treat us, 
how they are going to approach health research, language 
assistance, all those kinds of things.
    I mean, you know, Director, we need to get it right because 
I am not white. I am not. And I don't, you know, try to say to 
other that you should be this or that. But when I sit on this 
form and I look at it, I don't see myself represented on this 
form. And I think that is a huge issue for people like me. And 
I need you to do more in pushing back against this current 
Administration, ignoring what the previous Administration was 
able to do, and the U.S. Census Bureau decided to add MENA and 
they ignored it.
    Mr. Dillingham. Congresswoman, I can assure you that we 
continue to study race and ethnicity, and the options for self-
reporting that.
    Ms. Tlaib. Director----
    Mr. Dillingham. And let me just----
    Ms. Tlaib [continuing]. I know----
    Mr. Dillingham [continuing]. Let me just say that----
    Ms. Tlaib [continuing]. But we have been studied----
    Mr. Dillingham [continuing]. We want your views. We want 
your views and we are beginning the process of looking at the 
2030 census, and we----
    Ms. Tlaib. It is too late. It is too late, because for 10 
years we will be invisible, to health research, to a number of 
things, small business loans. We will be invisible for another 
decade in our country, and I think it is wrong. And it was 
wrong to ignore the efforts of not only the Office of 
Management and Budget but organizations like ACCESS, AAI, and 
others who followed the process, did what they needed to do, 
get public input, to making sure that they are seen finally by 
their own Federal Government.
    Thank you. I yield.
    Mr. Lynch. The gentlewoman yields. The chair now recognizes 
the ranking member, Mr. Meadows, for five minutes.
    Mr. Meadows. Thank you, Mr. Chairman. Mr. Dillingham, let 
me--I want to do a little bit of clean-up, if I can. 
Congresswoman Debbie Wasserman Schultz was asking about 
documents and timeframes. Here is what I am requesting of you. 
We need to know who is in charge of finally releasing the 
information. We need to know a reasonable timeframe on when her 
request can be given. And I need you to get that to this 
committee this week. Are you willing to do that?
    Mr. Dillingham. Congressman, I certainly will do everything 
I can.
    Mr. Meadows. I----
    Mr. Dillingham. And certainly I will do everything I can--
--
    Mr. Meadows. So, let me interrupt you. That was a softball 
question.
    Mr. Dillingham. I understand, Congressman. We will get back 
with an answer.
    Mr. Meadows. That is not--listen, this is not my first 
rodeo, and I get this from the previous Administration, and I 
am getting it from--I need it this week.
    Mr. Dillingham. Yes.
    Mr. Meadows. Are you willing to do that? You have got 
people behind you. Turn around and ask them right now, because 
we are going to wait until you give me an answer.
    Mr. Dillingham. Uh----
    Mr. Meadows. Turn around and ask them. If not, don't bring 
them here.
    [Pause.]
    Mr. Dillingham. Congressman, I think I got a firm yes for 
you.
    [Laughter.]
    Mr. Meadows. Thank you.
    Mr. Dillingham. And for the Congresswoman as well.
    Mr. Meadows. OK. Thank you. I appreciate it.
    Listen, this is--because it comes across as if you are 
trying to hide information.
    Mr. Dillingham. No, absolutely.
    Mr. Meadows. It shouldn't be this hard. It should not be 
this hard. Just basic respect for Members of Congress. Each one 
of them represents 727,514 Americans. Just on that basis, you 
should give the decency and the respect to the Members of 
Congress who are sitting here, who have been elected by their 
constituents. Give them the information that they are owed, 
that they deserve.
    That is all. I yield back.
    Mr. Dillingham. Congressman, I agree with both of you on 
this. I can just--just by way of explanation, that, you know, 
we try to recruit as many partners as we can, and sometimes 
when we are putting the list together, especially in the early 
stages, some did not give us permission to use. And so we need 
to remedy that, and I think we have the remedy, is what I just 
heard. We may have the remedy.
    Mr. Meadows. Yes, even if you have got five or six people 
that says there are others here, Ms. Wasserman Schultz 
understands that sometimes, because of privacy. I just think 
that you can respond and answer her question. You and I have 
talked. I know that you are not trying to hide anything, but it 
was coming across that way. And so----
    Mr. Dillingham. I appreciate it.
    Mr. Meadows. So, the other thing that I would ask each of 
you is--I probably have been to more census hearings than any 
other Member of Congress. It was not on my bucket list, I 
promise you. And there are going to be some problems. There are 
going to be some major problems. And here is what I am asking 
you, Dr. Dillingham, and Dr. Fontenot, if you would, is if 
there is a major problem I don't want to read about it in the 
Washington Post or the New York Times. If you would get with 
the chairman and let us know, even if it has to be discreet. If 
you are seeing a problem, we want to know about the problem 
right away. Are you both willing to do that?
    Mr. Dillingham. Congressman, we are, and in fact I think we 
have every opportunity. We brief your staffs on a regular 
basis. We brief all the caucuses that were mentioned earlier, 
and we are a very transparent organization, and that is the way 
we do our business.
    Mr. Meadows. And I guess what I am saying is, when the 
problem comes up I don't want to hear about it from GAO that we 
have got the--but go ahead. I saw you raising your hand.
    Mr. Mihm. Mr. Meadows, as you know the strategy that we 
have in place, the controller general has directed us to make 
sure that--some of them are sitting behind us--we have a strike 
team that is going to, if we see localized problems, because 
that is where it is going to be, localized, we are going to be 
able to get in there right away and then obviously report back 
to the Congress.
    Mr. Meadows. Thank you, and thank your entire teams. Both 
of you have got teams. Listen, with your predecessor, Mr. 
Thompson, I actually had a number of meetings and was really 
concerned, in terms of progress. We were working with GAO and 
others. And we are in a much better place today than we were 
even a year ago, and certainly than we were three years ago. At 
the same time, because it is new technology and new methods of 
collecting this data, we want to make sure that we have an 
accurate--not only an accurate count but one that is credible, 
that will withstand scrutiny.
    So, if you see areas, that you have got areas of concern, 
if you would please let us know, that would be very helpful.
    The other thing that I want to come back to is in terms of 
the multiple pinging of non-responses. When we send out 
letters, a lot of times those letters are going to places that, 
honestly, are not deliverable, and we don't get those back from 
the post offices until long after the response.
    So, if you can look at areas on the non-responses with our 
community partners--Native American lands, minority 
communities, rural communities--if you can look at those and 
how we can make sure--and I know you are. But what I guess is 
over the next 60 days double down on that as we start this 
process in earnest, I would greatly appreciate it.
    I see you are nodding, so for the record I guess we are all 
in agreement. Is that correct?
    All right. I yield back. I thank you.
    Mr. Lynch. The gentleman yields. The chair now recognizes 
the gentlewoman from California, Ms. Porter, for five minutes.
    Ms. Porter. Hello. I want to ask you about an example of 
census disinformation that is already spreading, not on social 
media but through the postal mail. Individuals across the 
country, including in Michigan, California, Alabama, and other 
places, have reported receiving a questionnaire in the mail 
titled ``2020 congressional District Census.'' But this 
questionnaire is not from the Census Bureau. It is not the 
census. It is a fundraising mailer from the Republican National 
Committee.
    I have a copy of this mailer here, Madam Chairwoman, and I 
would like to enter the copy into the record.
    Mr. Lynch. Without objection.
    [The information referred to follows:]
    Ms. Porter. Thank you. This questionnaire is labeled as, 
quote, ``a census document that was requested by President 
Trump.'' The document asks individuals to return it within 
seven days to ensure accurate tabulation and dependable 
results, and it says, quote, ``Enclosed is your official 
congressional district census,'' and people are given a 
registration code that is specific to them, a several-digit 
number, not unlike--an alphanumeric number--not unlike what 
they are going to be getting to then go online to complete the 
census.
    This is not the first time that we have seen the RNC, the 
Republican National Committee, try to confuse voters by sending 
them a mailer that imitates the census. They did the same thing 
in 2010, prompting Congress to pass a law, sponsored by 
Chairwoman Maloney, trying to stamp out this conduct. But here 
we are, 10 years later, and the RNC is at it again.
    Dr. Dillingham, are you familiar with this RNC mailer?
    Mr. Dillingham. I have heard generally about the problem.
    Ms. Porter. Have you seen it?
    Mr. Dillingham. No, I have not seen it.
    Ms. Porter. We have sent it to the Census, to the Postal 
Bureau for investigation. Will you please commit to reviewing 
this?
    Mr. Dillingham. We will be glad to review it.
    Ms. Porter. I am asking you personally. Will you commit to 
reviewing this?
    Mr. Dillingham. I certainly will.
    Ms. Porter. Thank you. Have you asked the RNC to cease and 
desist from using the term ``2020 census'' or ``official 
census'' in its mailings?
    Mr. Dillingham. Congresswoman, I would have to look and 
see. I am not sure who sent that out, and----
    Ms. Porter. I am.
    Mr. Dillingham. OK.
    Ms. Porter. Because I have reading glasses. I am sure you 
are going to be able to see this. Way down here, on page two, 
in this little-bitty box, in about, I would say, four to six 
point font, it says, ``Paid for by the Republican National 
Committee.''
    Will you ask the RNC to stop using the terms ``2020 
census,'' ``official census'' and a registration census code?
    Mr. Dillingham. We will study this problem, and let me tell 
you what we do for avoiding any type of scam or 
misrepresentation.
    Ms. Porter. No. I would love to ask you more generally 
about this, but I am concerned about this, and this mailing has 
already gone out. So, the time to stop it was actually before 
it happened. And when the first reports came into your office--
we know Californians have called the RNC. Someone's parent got 
this, an elderly parent. The adult child called the RNC, asked 
them to stop sending these things to their parent, and the RNC, 
which I realize you are not responsible for, but the RNC told 
them, quote, ``This was an order by Donald Trump to send out to 
people and they must comply with us.''
    The census is already facing so many problems with 
disinformation. This fake census from the RNC will only serve 
to increase confusion and distrust, and I call on you to do 
everything you can to actually combat this document. These were 
beginning to be mailed back in early 2019, so this has been an 
issue for over a year now. And we should all, regardless of 
party, avoid politicizing the census. Do you agree?
    Mr. Dillingham. I agree we should not confuse any mailings 
like that with the census, absolutely.
    Ms. Porter. OK. What actions is your team taking to prevent 
fraudsters from capitalizing on the census?
    Mr. Dillingham. Sure. We do have, on our website, we have 
ways for people to report this, for avoiding scams and fraud. 
We remind that the don't ever give your Social Security number, 
don't give donations, don't do anything on behalf of a 
political party with anything to do with the census, don't use 
your credit cards, et cetera.
    So, we put out advice and then we also try to make sure 
that we dominate any communication with more accurate advice, 
as well as reporting it.
    Ms. Porter. Mr. Dillingham, I have a question about this, 
because I am glad that you have this correct information on 
your page. Do you track census scams over time, and will you 
share that information with this committee as well as with 
other partners and stakeholders so that they know what is being 
circulated that is false, so that when people bring in--what 
system do you have to accurately encourage people to self-
report, and will you share with us what is being self-reported? 
Because I am requesting. I want to know how many Americans 
contacted the Census Bureau to complain about this form. Will 
you provide me with that number, please?
    Mr. Dillingham. We have that information. We will get those 
totals to you.
    Ms. Porter. Thank you so much. I yield back.
    Mr. Lynch. The gentlelady yields. I now recognize myself 
for five minutes.
    Mr. Marinos, you are the Director of Information Technology 
and Cybersecurity. Is that correct?
    Mr. Marinos. Yes, sir.
    Mr. Lynch. I noticed, from the GAO report, a couple of 
things. One is they are saying that this will be the first 
census where the internet shall be the preferred mode of 
communication and participation, and yet further down on the 
report it says that we still have significant problems with 
cybersecurity within the census system. Is that correct?
    Mr. Marinos. Yes. More generally, I think, what we are 
concerned about is that we have a census that is going to be 
relying on technology, including internet response, at a time 
when cyber threats are very high.
    Mr. Lynch. Right. So, let me ask you, so the other hat I 
wear, on another committee, is actually on Fintech, and we look 
a lot at blockchain applications. Is this the type of system--
and I know that blockchain is used extensively on data bases 
and registries in other countries--is this a type--are we 
looking at anything like that, where we can use a more secure 
system, a distributed system, one that is less vulnerable in 
terms of where the census is going?
    Mr. Marinos. With respect to the 2020 census, I am not 
aware that blockchain was explored as a possibility. It is 
entirely possible that in the lead-up to the next decennial 
that may be an option for the Bureau to consider.
    Mr. Lynch. Well, I mean, this is an every-10-year process, 
so you would think that the time to start, right, would be now.
    Mr. Marinos. Yes. In fact, you know, in reality, the 
internet response capability was earlier tested, I mean, and 
considered in the early part of this decade as well. So, in 
reality, the Bureau is already pursuing and making plans for 
2030, and GAO itself will turn its eyes in that direction as 
well, to see what sort of planning is taking place within the 
next year.
    Mr. Lynch. Yes. I know there are, at least today, some 
privacy issues, because the blockchain is, you know, it is 
transparent, it is public, but I also know that there are 
permissioned blockchains where trusted parties have access and 
that encryption allows us to, you know, use pseudonymous or 
anonymous representations. But given the uses that we are 
applying the census data to, you know, for Federal funding, 
number of congressional seats, that is all data that gives 
people in the country an actual identity.
    And there is a lot at stake here and I just hope that, you 
know, in your position you might be the person to drive that 
process, to actually begin--I mean, obviously we can order a 
study. We can order the census to undertake a review of 
blockchain viability within the census. I am sure my colleagues 
and I could put something together, on both sides of the aisle. 
But it would be prudent, I think, to take the initiative on 
your part to explore some of these possibilities.
    Mr. Marinos. Yes, sir. There are essentially two things 
that GAO is doing right now. One, we are monitoring, as you see 
from our report issued today, on what is taking place right now 
in the preparation for the 2020 census. Having said that, at 
your initiative we are looking at issues like privacy. We are 
looking at the extent to which the Bureau is anticipating, once 
it collects the information, how it is going to protect it. And 
it is entirely up to the Congress to certainly ask us to look 
at issues like exploring what are possible technologies that 
could be explored for the future, for 2030 as well, and we 
would be happy to entertain that.
    Mr. Lynch. Thank you. I mean, it is tamper-proof. It has 
been proven to be tamper-proof, and there is an immutability 
aspect to it that is very strong. I do realize that there are 
some weaknesses on privacy right now, although there are a lot 
of really smart people working on that issue. We have got some 
scalability issues. But the fact that this is, you know, this 
is a decennial census, it would appear to be something that 
would lend itself to that type of process. I know some other 
countries are looking at that as well.
    My time has almost expired. The chair now--I will yield and 
the chair right now recognizes the gentleman from Missouri, Mr. 
Clay, for five minutes.
    Mr. Clay. Thank you, Mr. Chairman, and thank all of the 
witnesses for being here.
    Director Dillingham, good to see you again.
    Mr. Dillingham. Nice to see you, sir.
    Mr. Clay. The black community is historically undercounted. 
In the 2020 census, black communities were undercounted by 2.1 
percent, or roughly 778,000 people. It is crucial that the 
Bureau now work to address the historic issue of fully and 
accurately counting the black community. During our hearing 
last month, Marc Morial, CEO of the National Urban League, 
testified, and I quote, ``Sixty percent, this is the Census 
Bureau's research, 60 percent of African Americans are going to 
rely on the door knocker to provide information notwithstanding 
the internet, notwithstanding the telephone, and 
notwithstanding the paper form.''
    That number is much higher than the national average of 
approximately 45 percent. So, Dr. Dillingham, how has the 
Bureau adapted to outreach and enumeration plans to address the 
black community specifically?
    Mr. Dillingham. Congressman Clay, it is very important that 
we reach the black community, as with all communities, but 
certainly there are more challenges sometimes with a minority 
community, and particularly the black community. We appreciate 
the work that the Urban League and others are doing to assist 
us. They are our partners in this effort.
    And so as I began with my opening statement, we never 
underestimate the potential assistance that we can get from our 
partners across the Nation, and particularly from those groups 
that are working most closely with the black community, and we 
also need the leadership in the black community as the trusted 
voices to encourage everyone to make sure they are replying to 
the census.
    Now we have a lot of new reach-out activities. We discussed 
earlier some of the new technologies that we can take into the 
hard-to-count communities. Those were where the low-response 
rates are lower, and to help reach those individuals as never 
before.
    Nevertheless, it is important that they have the trust, and 
that they are motivated and engaged, so we do have, as the 
associate director mentioned in a previous answer to another, 
we courage the faith-based community. We encourage all the 
communities to help us with that, to make sure they are 
motivated, make sure they get the messaging. With our 
communications campaign we have special commercials to reach 
those communities. And so we are really using a variety of 
ways.
    But let me ask our associate director if he has----
    Mr. Clay. Yes, but let me say this before you respond. It 
is going to fall on the Bureau. It is going to fall on 
enumerators, actually, getting out there and knocking on those 
doors, because you all know what the response rate is going to 
be, and that is when you all are key to the followup.
    And Mr. Mihm, I see you want to say--go ahead.
    Mr. Fontenot. Congressman, one of the things we do is model 
those communities where expect lower response rates, to 
determine whether we need a larger number of enumerators. And 
in that case we are planning larger numbers of enumerators in 
those tracks that have low response rate, and especially in 
some of the black communities where we are planning larger 
numbers of enumerators, who are hired from within that 
community, who know that community, to go out and then take the 
count. But we are depending very heavily on our partners in the 
community to help us raise the trust level.
    Mr. Clay. But Mr. Marinos also said that your outreach 
should be culturally appropriate, and so how do we address 
that?
    Mr. Fontenot. Our outreach becomes culturally appropriate 
because designed with our partners, with the Urban League, with 
the NAACP, working with them, with our partnership staff who is 
from that community, who understands the community, and with 
churches.
    Mr. Clay. Including media outreach?
    Mr. Fontenot. Including media outreach.
    Mr. Clay. Black weeklies? Radio?
    Mr. Fontenot. We have an advertising agency that is a black 
advertising agency, that is a partner with Y&R, who worked to 
design a lot of the media campaign to reach out to the black 
community.
    Mr. Clay. OK. I am seeing my time is up, but thank you, Mr. 
Chair.
    Mr. Lynch. The gentleman yields. The chair now recognizes 
the gentleman from Pennsylvania, Mr. Keller, for five minutes.
    Mr. Keller. Thank you, Mr. Chairman, and thank you to the 
panel for being here today. The census is very important to 
everyone, and I just want to make note that now that the 
impeachment sideshow has ended and Speaker Pelosi finally 
thinks the census should be an issue of focus, I am glad to see 
we are starting to address some of the potential problems with 
the census.
    Ensuring an accurate count is essential, particularly for 
rural districts like PA 12, the one I represent, who receive a 
lower return on Federal tax dollars invested to the tune of 
$2,000 per person not counted.
    As of the beginning of February, over 2 million people had 
completed an assessment to become an enumerator in the 2020 
census, which is approaching the target or 2.6 million 
interested candidates by next month. In order to reach the end 
goal of hiring 500,000 people as enumerators, I understand the 
Census Bureau is conducting a recruitment campaign to ensure an 
adequate work force.
    Mr. Dillingham, can you speak to some of the challenges you 
have been seeing throughout this recruitment process and if 
there are any strategies the Census Bureau could implement 
quickly to address those before mailings go out and the process 
officially gets underway?
    Mr. Dillingham. Absolutely, Congressman, and we appreciate 
the circumstance in Pennsylvania, and Philadelphia is actually 
our regional headquarters, and so there is a lot of attention 
with Pennsylvania.
    But it is very important that we have the people on board. 
We had some previous discussions here today that we are going 
to meet our goal. We are going to surpass our goal. We will 
meet our goal, and that was the hardest-case scenario of the 
2.67 that we needed, and we are going to meet that in the first 
week of March.
    And the numbers, by and large, you asked what the 
challenges are, and I will--I think everyone understands that 
unemployment is low. So, that was a challenge. And so we have 
recruited--we have alumni that come back every 10 years that 
love to do this, but we have recruited in the university 
setting. There are 20 million university students out there 
with student loans and needing money. So, we have made a very 
concerted effort. We have more than 6,000 partners in the 
higher education field, and we spread the word in so many 
different ways. And our recruiters, right now we have 4,500 
recruiters that are recruiting people.
    So, that is why we are making our goals. We are on the 
course, and if we--we are over our goal if you look at the 
response rate of what we predict. But if the worst-case 
scenario, we certainly need more, and we are not going to stop 
recruiting all through the decennial census. Until we get the 
count, we are going to continue to recruit, so we will far 
surpass our goal.
    Mr. Keller. OK. Are you seeing challenges specific to 
recruiting enumerators in rural parts of the country, and if 
so, what ways can we, as Congress, be helping to improve 
recruitment and give you the tools you need?
    Mr. Dillingham. Congressman, exactly. Rural areas and other 
areas, particularly, I could say generalize in much of the 
Northeast, in some of the smaller states, we have encountered 
that. And one of the ways we do it is we have continuously 
reevaluated the pay rates. So, we have raised, even very 
recently, I think this week, we increased the pay rates for 
these people in certain jurisdictions based on what we are 
seeing, and the needs.
    But let me ask Associate Director Fontenot if he wants to 
add.
    Mr. Fontenot. Congressman, our labor economists work to 
look at the dynamics by county in areas that we are having 
difficulty recruiting. Some of those dynamics include the 
unemployment rate, the type of work in that county, the 
prevailing wage rate in that county, and we have been adjusting 
wages up where we have needed to, to reach more people.
    In terms of what you as a trusted voice in your community 
as a Congressman and your local staff can do to assist us is 
emphasize people responding to our recruitment advertising. 
That is primarily. If it is in a blog that you are putting out, 
if it is something that your staff can do to emphasize, step up 
and respond to census at 2020census.gov/jobs, and get people 
engaged in applying, that would help us significantly.
    But our people will work--our recruiting staff will be 
working with your district staff on any particular tracks or 
areas in your district that we are having difficulty 
recruiting.
    Mr. Keller. OK. I appreciate that. Thank you very much. I 
yield back.
    Mr. Sarbanes.
    [Presiding.] The chair recognizes Ms. Ocasio-Cortez of New 
York.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair. I would be remiss 
if we didn't remind the committee overall that this is not our 
first census hearing, but we have been at this work for quite 
some time. Yet if it is a given member's first time showing up 
to a census hearing, I welcome them.
    The Trump administration spent more than two years trying 
to add a citizenship question to the 2020 census, which, one, a 
Republican operative and gerrymandering expert said would be, 
quote, ``advantageous to Republicans and non-Hispanic whites.''
    Last year, in July, however, the Supreme Court ruled that 
the attempt to add the question was unlawful, and that the 
reason given to Congress and the American people was, quote, 
``contrived,'' and, quote, ``incongruent with what the record 
reveals.''
    I fear that the damage has already been done. A study of 
Latino attitudes toward the census by NALEO found that 83 
percent of undocumented persons and 74 percent of citizens 
worried that the Trump administration will use census 
information against immigrants.
    So, Mr. Dillingham, I want to get a few straight answers 
right now. I hope that they are relatively straightforward and 
would appreciate it if you could answer this with a simple yes 
or no.
    The first, the 2020 census will not ask about citizenship 
or immigration status. Correct?
    Mr. Dillingham. That is absolutely--yes.
    Ms. Ocasio-Cortez. Thank you. The census data will not be 
used in immigration enforcement. Correct?
    Mr. Dillingham. Yes.
    Ms. Ocasio-Cortez. Thank you. The census data will not be 
released to the Department of Homeland Security. Correct?
    Mr. Dillingham. Yes.
    Ms. Ocasio-Cortez. And as we know, releasing census data to 
DHS would be a crime punishable by up to five years in prison 
or $250,000. Correct?
    Mr. Dillingham. Yes.
    Ms. Ocasio-Cortez. And can you pledge today that immigrants 
can trust the Census Bureau to keep their data confidential so 
that they can participate in the census without fear?
    Mr. Dillingham. If I understood your question, it was 
whether or not I could convince or share with----
    Ms. Ocasio-Cortez. That you can pledge today----
    Mr. Dillingham. Pledge today. Absolutely, Congresswoman, 
and I would like every member of this committee and every 
Member of Congress and every elected leader, every appointed 
leader, and every leader in every community to communicate that 
same message. It is apolitical, the census. It is bipartisan, 
and we need everyone's support.
    Ms. Ocasio-Cortez. Thank you, and I appreciate you saying 
that. However, we do know that that message is not quite 
getting out to the country. Arturo Vargas, the CEO of NALEO, 
testified before the committee on January 9. He said, quote, 
``Many Latinos are resistant to participate in the census 
because they believe, after years of coverage, that there will 
be a question on the form, despite its absence.''
    And Vargas also continued to say that ``we have observed 
that the Bureau has been instructed not to discuss that 
question,'' the citizenship question. Is that correct?
    Mr. Dillingham. That is not correct, to the best of my 
knowledge.
    Ms. Ocasio-Cortez. OK. OK, great.
    Mr. Dillingham. As a matter of fact, I discuss it. Other 
people discuss it. Whenever it comes up, we have total freedom 
to discuss it.
    Ms. Ocasio-Cortez. OK, great. So, it is your testimony that 
the Bureau and employees of the Bureau have not been 
instructed--so your testimony is that that is not true, that--
--
    Mr. Dillingham. I am not aware of anyone being instructed. 
Now if----
    Ms. Ocasio-Cortez. Not to discuss the citizenship question.
    Mr. Dillingham. Not to discuss. Now let me just say this.
    Ms. Ocasio-Cortez. OK.
    Mr. Dillingham. This is a possibility, and I don't know of 
any factual basis for that. We do--our research indicates that 
we promote the benefits of the census, and so we don't go back 
and repeat something that may be perceived as being negative. 
We talk about the positives.
    Ms. Ocasio-Cortez. I see. So, is the--but I think the 
question here, to dig a little deeper, will the Bureau advise 
the public clearly and decisively, specifically, that there is 
no citizenship question on the census?
    Mr. Dillingham. Well, it has certainly been the case 
whenever I have been asked, or anyone with the Census Bureau 
has been asked, that is an absolutely accurate answer that we 
give, that it is not on there. In our advertising--now I cannot 
speak to the methodology of the NALEO research, and I am 
generally aware of some of the publicity with it, and they are 
our partner, and we support them in what they are doing with 
the Latino community and others.
    But we do our research with a very broad scientific survey 
of 50,000, focus groups of more than 120, we found that people 
were more interested in knowing the benefits. And so that is 
what we emphasize.
    Ms. Ocasio-Cortez. Thank you. And just with my last 
question, to clarify, if someone knocks on my door in the 
Bronx, how can a person confirm that this person is, in fact, 
from the census?
    Mr. Dillingham. Congressman, we have been to your district 
in the Bronx. We didn't meet with you on that particular 
occasion but we drove through, and by Queens College, et 
cetera, in that area, and we saw some of the apartment housing, 
et cetera, and some of the public housing or authority-
controlled housing. And we understand how important it is that 
they recognize when this is an official census person coming.
    So, we will have indicia. We will publicize it. We will 
have badges. The case we cover will have the U.S. Census Bureau 
on it. And so we have those ways, and we will also communicate 
with whoever is in charge of that complex, et cetera, that this 
is why we are here and this is what we are doing. And we have 
found that when we do that, when enter--for example, I was told 
by our partnership specialist, when we enter a hall word goes 
down through that hall immediately in that complex, that, oh, 
these people are here and this is what they are doing.
    So, we will work with those communities in every way we can 
to make sure they know that we have a legitimate purpose, and 
it is a purpose that we hope that they will support and has 
benefit to them.
    And I want to thank you also for working with some of the 
outstanding leadership in the state of New York that everyone 
knows, in promoting the value of the census.
    Ms. Ocasio-Cortez. Thank you very much.
    Mr. Lynch.
    [Presiding.] Does the gentlelady yield?
    Ms. Ocasio-Cortez. Yes.
    Mr. Lynch. The gentlewoman yields. The chair now recognizes 
the gentlewoman from Michigan, Mrs. Lawrence, for five minutes.
    Mrs. Lawrence. Thank you, Mr. Chairman.
    Dr. Dillingham, you have been to Detroit. Thank you for 
physically coming. Detroit, however, is a city notoriously 
undercounted in past census years. My district includes a 
significant minority population who speaks dozens of languages. 
So, it is critical that the Census Bureau take aggressive 
action to ensure the hard-to-reach populations are prioritized 
in your preparation.
    As you know, the Mobile Questionnaire Assistance operation 
is meant to improve participation in the 2020 census by 
establishing a visible Census Bureau presence in areas with 
low-response areas, and providing the public with a way to 
immediately answer the census in these locations. With this 
being said, that was a commitment that I received from you, but 
I am concerned that this operation will be understaffed and 
simply inadequate to serve the millions of Americans who may 
need it.
    In 2010, the Census Bureau spent $35 million on 
questionnaire assistance and deployed more than 31,000 staff 
members to nearly 39,000 locations. However, in Fiscal Year 
2020, Congress gave the census $1.4 billion more than the 
President requested and Congress has directed the census to 
spend a minimum of $90 million on this operation.
    Last Friday, however, the census informed this committee 
that you have only obligated $7 million to date and that it 
plays to deploy only 4,000 staff.
    Director, I am concerned that your proposed staffing level 
and infrastructure for the Mobile Questionnaire is insufficient 
to ensure cost-effective use of funds. Can you give me a 
commitment today to revisit the following: (1) the planned 
number of census response representatives, and (2) your 
decision not to include Questionnaire Assistance Centers at 
accessible fixed locations and hours for the period of time?
    Mr. Dillingham. I certainly will, Congresswoman, and I 
appreciate the visits to Detroit and those hard-to-count areas, 
the eight wards of Detroit. And we went to those areas and we 
saw the locations where we could use the Mobile Assistance, 
where they can go into the community centers. As I recall, each 
ward had plans for a community center. We visited one, but they 
have centers there. And we also went to donut shops, for 
example, in Detroit, and we saw where the homeless would 
congregate, and we said that is where we can take the 
technology directly to those location and help to count those 
people.
    Mrs. Lawrence. So, are we going to do that? Are we going to 
do it?
    Mr. Dillingham. We are going to do that, and I want to 
commend the city of Detroit and the partners, the occasion, 
when we visited the law school, et cetera, those people were 
very committed. And when they took us around early on a Sunday 
morning, we saw those locations, and that is what we intend to 
do.
    Now you bring a question, and we will be glad to get back 
with you on the facts and figures. But it was unanimous among 
the professionals at the Census Bureau that the fixed 
locations, in this day and age, were not nearly as efficient or 
effective. As a matter of fact, we don't have the hard data, 
but some data we have indicates in some locations we had an 
average of 1 1/2 people visit a day. And to have a storefront 
location where only 1 1/2 persons come in a day is not being 
efficient and effective.
    That is why there was agreement, and the Congress asked us, 
the appropriating committee in the House and the Senate said, 
``What can you do and what can you do better?'' And we 
developed this plan which they decided to fund, from $90 
million, and we actually may spent $117 million on it.
    But is an additional more than 4,000 people who are our 
recruiters----
    Mrs. Lawrence. So, if you are not going to invest into the 
brick-and-mortar----
    Mr. Dillingham. That is correct.
    Mrs. Lawrence [continuing]. As was the plan, how do you 
reach? I mean, how do you give access to those people who say, 
``I can't figure out what you are talking about. Somebody needs 
to tell me,'' and you are not knocking on the door. How do you 
fix it?
    Mr. Dillingham. Well, what we do is through our partners, 
like the American Library Association--if they want to do it 
online they can to community centers, they can go to the 
library, they can go to the businesses that allow that, with 
the internet option. A lot of those people will not choose the 
internet option. That is correct.
    Mrs. Lawrence. That is correct.
    Mr. Dillingham. So, then if they have a phone they can 
call.
    Mrs. Lawrence. But Dr. Dillingham, we have a crisis----
    Mr. Dillingham. Yes.
    Mrs. Lawrence [continuing]. In Detroit, where a lot of our 
local libraries are not open or functioning, or if they are it 
is only two or three days a week. So, how do you satisfy that 
need when you don't have a place on a regular, consistent 
schedule, for them to have access?
    Mr. Dillingham. Yes. Let me give you one example in 
Detroit, and working with the former chairman of this 
committee. They were interested, and the mayor was interested 
in a fixed location in Baltimore. But when we went around the 
people on the Complete Count Committee, and the people 
assisting, we identified 80 locations in the city of Baltimore, 
and that was a subset. There is going to be more than 80 
locations where people can go, for example, if they want to use 
the internet.
    But the phones, if they have a phone of any type--hard 
line, smart phone, or whatever--they can use the phones. In 
addition, we will have the paper, and then, as was pointed out 
by Congressman Clay, pointed out that perhaps in some 
communities you really rely ultimately, if we don't get the 
responses after five mailings, we rely on the enumerators and 
the people hired from those communities, and the partnership 
specialists from those community will help us to get a complete 
count in those communities.
    Mrs. Lawrence. Mr. Dillingham, my time is up.
    Mr. Dillingham. Detroit is a very tough case, and we are 
going to work with you in every way we can.
    Mrs. Lawrence. And I want you flexible to be able to 
revisit that.
    Mr. Dillingham. Yes.
    Mrs. Lawrence. Thank you. I yield back.
    Chairwoman Maloney. [Presiding.] The gentleman from 
Maryland, Mr. Sarbanes, is recognized for five minutes.
    Mr. Sarbanes. Thank you, Madam Chair. The 2020 census is 
the largest and the most digitally advanced census that we have 
ever conducted. It is the first that will be done mostly 
online, as I understand, so obviously cybersecurity is going to 
have to be a top priority for you all.
    There is a report today from the Government Accountability 
Office which raises serious concerns about whether the Census 
Bureau is up to that challenge. It says, quote, ``The Bureau 
continues to face challenges related to addressing 
cybersecurity weaknesses, tracking, and resolving cybersecurity 
recommendations from the Department of Homeland Security and 
addressing numerous other cybersecurity concerns such as 
protecting the privacy of respondent data.''
    So, notwithstanding the commercial we saw at the front end, 
which showed that security obviously is going to be a key 
concern, we have some worries here. Mr. Marinos, can you 
elaborate on the cybersecurity challenges you identify in your 
report? And I guess I would just make the point that if ever 
there was a juicy target for those who want to hack in and 
cause mischief and sow discord and all the rest of it, it would 
be our 10-year census when we are putting it online in a way we 
have never done before. So, that has got to be, obviously, a 
high, high priority. So, could you speak to that please?
    Mr. Marinos. Certainly, Mr. Sarbanes. So, indeed, I think 
that is what is probably the most important thing to emphasize 
here. We are dealing with cyber threats on a constant basis 
against Federal agencies and the Census Bureau is no exception, 
with respect to that. The reality is in why GAO identified the 
census has a high-risk area in 2017 resides quite heavily on 
the innovations. So, the fact that we are looking to rely on 
the internet response option as one of the key ways for the 
public to be able to respond to the survey is what creates the 
risk, and specifically the cybersecurity risk.
    Having said that, we have some encouraging news here. The 
Bureau is working with CISA, as we mentioned, the Department of 
Homeland Security's cybersecurity experts, and has been doing 
that for actually over two years. CISA has been conducting 
assessments. CISA has been providing consultative advice to the 
Bureau, and has an agreement with the Bureau to provide 
operational support in the event that the Bureau starts to see 
some nefarious activity. So, that is a positive.
    Mr. Sarbanes. Yes. Let me jump in, because I guess the 
Census Bureau's own data was talking about these concerns, and 
last Friday the Bureau informed us that it had 924 unresolved 
security vulnerabilities, known as, quote, ``plans of action 
and milestones,'' end quote, at the end of January. And those 
vulnerabilities included 151 that were, quote, ``high risk,'' 
and 60 that the Census Bureau deemed, quote, ``critical.'' And 
according to the Bureau itself, less than half of these will be 
fixed before Census Day, on April 1, 2020.
    So, Dr. Dillingham, shouldn't all the critical and high-
risk problems be fixed before April 1?
    Mr. Dillingham. Congressman, we certainly would hope that 
would happen. But let me explain, that the Census Bureau 
engages in a very sophisticated risk management process that 
began in the 1990's with guidance from GAO on how we do risk 
management. So, what we do is we identify all of our risk. They 
document some of these risks and they tell us when we are 
slipping on our schedule or where risk continues to exist. We 
have developed the plans for remedying the risk, and we get 
things off of that list every day, and more come on.
    We have, as I mentioned earlier, more than 25,000 tests 
that we have to do with our IT system, and we have more than 
27,000 tasks that we perform. And whenever we see that 
something is slipping schedule or whatever, we put it on our 
risk list, and then we work the risk list, and the majority of 
those are coming off the list. I think GAO commends us often 
about the progress we make. But the whole concept of risk 
management is to always be looking for a risk, and that risk 
can simply mean you are slipping schedule a little, and then 
you work the risk, and that is what we do.
    So, we will never, in my opinion, not have a risk list. We 
will always have risk, and risk, by definition, means there is 
a possibility that something will happen, not that it has 
happened.
    Mr. Sarbanes. Well, I certainly appreciate that, you know, 
you can't guarantee that every risk is eliminated completely. 
That wouldn't make any sense. But I hope you are just throwing 
everything at this on the front end. And Mr. Marinos, do you 
have some confidence that the Bureau still has time to address 
the key challenges, the most obvious risks that you have 
identified in the GAO's recommendations, and get that done 
before Census Day?
    Mr. Marinos. Well, we are definitely encouraged, in 
particular, with respect to how the Bureau is approaching 
trying to take action on feedback it is getting from DHS.
    I just want to clarify too, with respect to the issues that 
the Bureau itself identifies as a course of testing, the 
results of testing are the corrective actions, and so that is a 
positive. Having said that, we have been on record recommending 
to the Bureau that they do a better job to rack and stack, 
prioritize what are the most critical risks to them. They 
actually make those decisions because they are the experts of 
their environment, and that is where we are continuing to 
uphold the fact that our recommendation is important to 
implement.
    Mr. Sarbanes. Thanks, and I yield back.
    Chairwoman Maloney. The gentleman yields back, and the 
gentlewoman from Massachusetts, Ms. Pressley, is recognized for 
five minutes.
    Ms. Pressley. Thank you, Madam Chair. First I just want to 
say I am grateful to your convening this important hearing and 
for your tireless work to defend the integrity of our census, 
in keeping with the leadership of our former chair, and I thank 
you, Mr. Dillingham, for bringing him into the space, Elijah 
Cummings.
    I cannot overstate the importance of a successful and 
accurate census enough. We have been talking throughout today 
about hard-to-count districts. More than 60 percent of my 
constituents living in Suffolk County live in hard-to-count 
neighborhoods, more than 60 percent. So, critical to ensuring 
undercounts don't take place in the first place is making sure 
that we have the staff power recruited, hired up, trained, and 
ready to do the work.
    Now I have heard, directly from constituents of mine, who 
are eager and enthusiastic to take on this task, but instead, 
being frank, have been given the runaround or have been left 
waiting to hear, for weeks on end, from the Census Bureau on 
the status of their applications.
    So, today I would like to discuss the Census Bureau's 
recruiting and hiring efforts. I understand the Census Bureau 
is expected to hire up to half a million temporary workers to 
conduct the 2020 census, including enumerators who knock on 
doors to ensure everyone is counted. To do that, the Bureau set 
a goal of recruiting 2.6 million applicants, but again, 
according to the GAO report, the Census Bureau is far behind. 
The GAO says, quote, ``The Bureau is behind in its recruiting 
of applicants for upcoming operations. If the Bureau does not 
recruit sufficient individuals it may have difficulty hiring 
enough staff to complete its upcoming operations within 
scheduled timeframes,'' unquote.
    I know there is a reoccurring theme here. There is a 
reoccurring, repeat themes here because we have shared 
concerns, and we do want to be good-faith partners to each 
other in this endeavor. And as elected officials I don't get to 
just--we don't get to just speak to the what. We have to 
explain the how. And I don't believe we have gotten to that.
    And so, Dr. Dillingham, you have known about this problem 
for weeks, outlined in the GAO report. Why is the Bureau so 
behind on this, with just weeks before the counts begin 
nationwide?
    Mr. Dillingham. Congressman, we appreciate your concern 
with this. We appreciate GAO pointing out that we did have a 
very ambitious goal, under the worst-case scenario, that we 
were trying to meet. We will meet the worst-case scenario in 
just a couple of weeks, by the first week in March, and most of 
those people will not be hired for many weeks later. So, we are 
on course. We have absolute confidence. There is no one at the 
Census Bureau worried about us not having recruits, overall, in 
the country.
    Now what we do worry about, some areas--and I can certainly 
check Boston and areas of Massachusetts--there are areas that 
we want to focus on. We have at least three applicants for 
every job that we are going to be hiring for, in every part of 
the country, but some we have four and five applicants. We want 
four, five, and I want six applicants for every job that we 
have available, because we have greater selectivity, we can 
choose the people from the communities, directly from those 
communities, and often with a set of language skills needed.
    So, let me put our chart up here and show you where we are.
    Ms. Pressley. Oh no, I have seen that from earlier in your 
presentation.
    Mr. Dillingham. OK. And we have it in your materials.
    Ms. Pressley. And again, just to underscore not only the 
GAO report, which contradicts what you are offering.
    Mr. Dillingham. And their data is somewhat dated. I think 
they will admit that.
    Ms. Pressley. Again, it contradicts what you are offering, 
and it contradicts on-the-ground experience by the people that 
I represent.
    In order to maintain the integrity of the census process 
then we have to have the recruiting process be one that is of 
integrity. And I have participated in job fairs in previous 
census, and have been a good-faith partner. I have already done 
census awareness events in my district. And, you know, those 
that are unemployed or underemployed and who want to be a part 
of this process, they have just been, you know, left out to 
dry, without any response, for a very long time.
    So, I am glad that the Bureau has had a recent uptick in 
recruiting----
    Mr. Dillingham. Can I respond?
    Ms. Pressley [continuing]. But I want to show you a chart 
again, from today's GAO report. OK.
    So, the red line shows the Census Bureau's goals for 
recruiting. The blue dotted line is your actual recruiting, 
which has been lagging behind since last September. As you can 
see, you still have not reached even your own internal goals.
    So, Mr. Dillingham, what is causing the hiring delays at 
the Census Bureau? What can I tell my constituents----
    Mr. Dillingham. Congresswoman, we have reached our internal 
goals with respect to the anticipated response rate. The worst-
case scenario response rate, we are on the verge of hitting 
within two weeks. Most of these people will not be hired, some 
for months, some for weeks. And you started out with people are 
concerned about not getting word about being hired yet. We are 
making the selections. In March we are going to be making 
final----
    Ms. Pressley. Well, just even acknowledging even receipt of 
application. But at the committee's last census hearing, Marc 
Morial, President and CEO of the National Urban League, said, 
``It is time to ring the alarm bell on the enumerator program. 
They are behind, and there is no strategy to catch up.''
    Mr. Dillingham, is Mr. Morial's concern a fair on? Yes or 
no?
    Mr. Dillingham. I will say this. He is our partner. We work 
with him. We respect him.
    Ms. Pressley. Yes or no?
    Mr. Dillingham. And let me say, some people look at a glass 
and say it is half empty. We say it is filling fast and will 
overflow. And so with Mr. Morial I would characterize it 
differently. Yes, I would.
    Ms. Pressley. Well, it is not just about meeting a single 
national recruiting target. Census workers are needed more in 
hard-to-count communities where many people will not fill out 
census forms until someone arrives at their door. Yet again, 
according to the GAO, 202 of the 248 area census offices fell 
short of their individual recruiting targets. I mean, all of 
this is about numbers.
    Mr. Dillingham. It is.
    Ms. Pressley. OK. And the numbers are telling the story. 
And it is----
    Mr. Dillingham. We think so. We also base our assessments 
on the numbers.
    Ms. Pressley. And it is a sobering one that stands to 
really devastatingly impact communities that are already under-
resourced and underserved.
    Mr. Dillingham, do you agree that staff shortages could 
have a bigger impact in hard-to-count communities? Or Mr. 
Fontenot, anyone who would like to weigh in here.
    Mr. Fontenot. Yes. We agree that staff shortages could have 
a big impact on hard-to-count communities, but I will emphasize 
that by the time we start making selections for hiring, we will 
have exceeded 2.7 million, 2.67 million applicants in our 
applicant pool.
    The challenge that your constituents are having is they 
have signed for the census a month ago, two months ago, and we 
haven't hired anyone yet. Our plans ways to always begin 
selection for the non-response followup operation, which is our 
big operation, in March. It was on our website and it was on 
the application, of this is the order of when things happen. 
People missed that along the way.
    Ms. Pressley. OK. Well let me just----
    Mr. Fontenot. And I have had them come up to me, who know 
me, and say----
    Ms. Pressley. Well, Mr. Fontenot, I am so sorry.
    Chairwoman Maloney. This is the last question. The time has 
expired, but ask the question and he can answer. Ask it.
    Ms. Pressley. OK. All right. Well, I just want to say for 
three counties in the Massachusetts 7th which I represent, the 
Census Bureau still needs to recruit 11,000 applicants. So, 
just for the purposes of the record, and Rep. Ocasio-Cortez was 
doing the same thing, can you just clarify that none of this 
delay has anything to do with security concerns? There are 
people affiliated with the census who have told people that 
have applied that this is an exhaustive process because there 
needs to be extra screening and be mindful of people who would 
be coming to your door. And this has especially been told to 
those who have queries.
    So, I just--could you, just for the record, just say that 
there are no discriminatory barriers to people applying, and 
then speak to what is a reasonable time to expect someone to 
get back, when someone has applied?
    Mr. Fontenot. Right now we are sending a letter to any 
applicant who has applied within two weeks of their 
application. They are getting some notification.
    Ms. Pressley. Right now?
    Mr. Fontenot. We have received your application, okay. But 
they will not be selected until our March timeframe for our 
primary operation, period, because the operation actually does 
not start until May. So, we are hiring people in advance of an 
operation and a training process. And so that is the one thing 
that I want to maintain clarity on, that there will be a gap of 
approximately 60 days between the time we start selection and 
the time people start actually working and being paid.
    Chairwoman Maloney. The gentlelady's time has expired. The 
gentleman from California, Vice Chair Gomez, is recognized for 
five minutes.
    Mr. Gomez. Madam Chair, thank you so much for holding this 
important hearing. I want to thank all of you for being here.
    I have been working on this issue for--since I got elected, 
and one of the things I have been concerned about is just 
outreach to minority communities, hard-to-count communities, 
especially like mine in California and downtown L.A. Some of 
the partner--the nonprofits that are doing some of that 
outreach through some of the state and Federal grants, they are 
reaching out to communities, and I have asked them questions 
about their programs. So, they are doing a lot of phone calls 
right now, doing some advertising.
    And then they mentioned to me that the Census Bureau 
advised them not to have like door knockers when enumerators 
are out. Is that correct?
    Mr. Dillingham. Congressman, first of all let me say this, 
with your partners. You have the greatest number of partners 
than any Member of Congress. You are at almost 2,000 partners. 
And so I commend you greatly on that. Those partners make a 
very important difference. Also, you have probably the most 
difficult, hard-to-count community with the homeless. And when 
I was in L.A. and visiting your district, and visiting your 
office, and, in fact, both HUD as well as the City were trying 
to get some counts as to that population. And I went out and 
looked. We looked carefully at the populations and some of the 
challenges for counting them, that we are planning for.
    But the--reaching the hard-to-count in your district, we 
are totally committed to doing it in any way. With regard to 
the specific, this is my understanding, is that there has been 
some discussion because California has more resources and is 
doing a count of its own, of a type, I guess with a 
corporation, a think tank that has been hired to help with the 
count. And I think that we have given advice that we don't want 
to mix the two together so that people are confused as to who 
is knocking on their door. Is the think tank-administered 
survey or is it the census? And as far as I know that is what 
the issue was and has been.
    Mr. Gomez. Yes, and that makes sense, right?
    Mr. Dillingham. Yes.
    Mr. Gomez. You don't want two people that folks--so you 
have one group say it is the official, nonprofit or community 
liaison knocking on doors, saying, ``Hey, have you filled out 
the census,'' and then that person automatically thinks that 
they have filled, like they were counted, right, and then they 
don't respond. That is real fear, correct?
    Mr. Dillingham. It is.
    Mr. Gomez. Confusion by having too many people at the wrong 
time. And I agree with that.
    But that leads me to some other things that are disturbing 
that is going on in California, right. There is a situation 
where we have some mailers, and somebody raised them before. 
Madam Chair, I ask unanimous consent to enter into the record a 
Republican GOP census doc, said ``2020 Census, District Census 
Doc.''
    Chairwoman Maloney. Without objection.
    Mr. Gomez. And they are mailing this out into California, 
right. Do you believe that this will cause confusion?
    Mr. Dillingham. Congressman, I got a copy of it before you 
came in to the hearing today and another Congresswoman from 
California shared this with me. And we don't want any confusion 
whatsoever. So, we pledged that we would look at this, and I 
explained that we have sources on our website that if people 
feel they are being deceived in a way they can report it to us, 
and we will look into it. But also that we never request 
personal information. We never request funding. We never 
request Social Security numbers, credit cards, et cetera.
    So, we need to get that positive message out.
    Mr. Gomez. Yes. That is not my question. Here is the thing. 
If you are so concerned and you advised--you advised these 
nonprofits, the state of California, these different groups, 
not to have door knockers----
    Mr. Dillingham. We didn't advise them not to. We just 
advised our folks not to be confused with them.
    Mr. Gomez. And why? Because you might end up actually 
suppressing the count itself. So, that is the point, right? You 
have a document that is going out that looks official, 
official, right. It could cause that same kind of confusion 
before the actual census forms get mailed out. And what I am 
saying is that we need more communication with whatever entity 
is out there. You know, if it is the Republican Party, they 
need to be pointed out that this will--can inadvertently 
suppress the count. So, I am not saying that it will, but it is 
possible. If you are concerned about having folks, other folks 
knocking on doors, this should be deeply concerning to the 
Census Bureau.
    Is the Census Bureau going to do any outreach to these 
campaigns, to the political parties, to not have forms that 
look like the census? I know freedom of speech, freedom of 
political communication becomes very difficult, but is there 
any discussions of having those conversations with these 
entities?
    Mr. Dillingham. Congressman, to my knowledge we have not 
had those discussions with any political party or campaign. And 
as I indicated earlier, our primary response is to make sure 
people get accurate information that this is not part of the 
Census Bureau's questionnaire or anything.
    I do understand, and I am also the recipient of mail that 
is often disguised with headings, just to get you to open it 
and to begin reading it. When I read this I would hope that 
anyone would realize this is not the census. But I understand 
that there are these operations that want to attract attention 
and get you to open the mail.
    Mr. Gomez. Thank you. I am not surprised by these mailings. 
I have seen it before, different types. Often they do, you 
know, political campaigns do an envelope that says ``Important 
tax information,'' or a bunch of silliness in order to win. But 
this is a bigger deal than I think that you realize. There 
should be a deeper concern.
    I understand that they are going to make constitutional 
arguments, it's going to be limited, but sometimes a good 
public shaming helps to correct behavior. Well, let's hope.
    Another question. In order to--I think I am over time now, 
but one of the things that I am interested in is how are we 
going to--there are some technical issues, or people are 
concerned about the online, filling out the form, the phone 
number. Is there any concern about overwhelming the system, or 
will the system be able to handle a massive flux of people 
trying to fill out the census questionnaire at the same time? I 
doubt it, because it is like--let's face it, people are not 
revving up to fill out the census. But what are your thoughts?
    Mr. Dillingham. Congressman, we do think about that, and 
the system has been designed to accommodate--to far exceed what 
our predictions are. So, that if we think we are going to be 
receiving the information from up to 200,000 at one time, we 
designed the system for 600,000-plus. And so far they have 
tested very well.
    We recently made a decision with regard to our systems to 
make sure that we had the one that would present a better 
customer experience and could handle the volume a little better 
as our primary system for the internet self-response. And so we 
are mindful of that. And, you know, in the invent it was to 
happen it could slow down the system, but we also remind 
people, we want them to get it in soon, but they have about 
four months. So, it is not that everyone is going to get on the 
system in one day, or even one week.
    And so we do study that, we plan for it, and we--all 
indications are we are ready for it. But could it happen? I 
mean, I used to present hypotheticals. If it was football 
season and you got all the college teams playing football, and 
asked at halftime for everybody in the stadium, you probably 
could overwhelm the system. But I am not sure that is a 
realistic scenario.
    Mr. Gomez. So, in political campaigns we see like there are 
trends, right. You can tell people turn in their ballot early 
or they turn in their ballot late. Traditionally it has been 
kind of this U shape. Now it is moving toward everybody toward 
the back, like toward the end. Like the closer to Election Day, 
people are holding on to their ballots, waiting longer.
    Have you guys seen that, like how it works through the 
census? Is it a traditional, a lot of people answer right away 
and then it slows down and the picks up?
    Mr. Fontenot. From our 1918 test, when we began to look at 
what type of self-response we had, we had a big thrust early in 
the process, and then we had a renewed thrust after we knocked 
on the door the first time and left a notice of visit that 
said, ``Hi. I am going to be your census person. I am going to 
come back and visit. You weren't here.'' People then went and 
got online, and so we had another bump.
    But our bump is at the beginning and then a little bump 
then, and then it tapers off from that point on.
    Mr. Gomez. OK. Thank you, Madam Chair, for indulging me. I 
yield back.
    Chairwoman Maloney. I want to thank Jimmy Gomez for 
bringing up this deceptive mailer. I think it is outrageous. It 
looks like an official document. It says, ``2020 congressional 
District Census,'' then it says, ``Fill out your census 
document.'' And it is a campaign piece for the Republican 
National Committee, right? That is outrageous.
    I think that--I want to know what your response is going to 
be to that, Dr. Dillingham. This is abuse. We have been writing 
all of the--Facebook and Twitter and every other social media, 
urging them to be careful about deceptive documents that could 
be put on the internet, that could be confusing to people on 
this constitutionally required effort to count everybody. And 
then you find out a congressional party is sending out 
deceptive information.
    So, I found it outrageous. I am going to be reintroducing a 
bill that I put in in 2010, which I thought would stop this, 
but would make it a crime to be handing out and mailing 
deceptive information on the census. Here we are, supporting 
you, with all the funding you request for all the support you 
need to get an accurate count, and then you have other people, 
you know, in certain parties, undermining it. I think it is 
outrageous.
    And I want to thank you, Mr. Gomez, and actually, I think 
we should have a hearing where you testify on how you got 3,000 
community partners, because I think that is quite an impressive 
accomplishment. I would like to have that many, and I think 
every Member of Congress would. Congratulations to you.
    And I believe our last speaker today is the gentlelady from 
New Mexico, Ms. Haaland, and she is recognized for five 
minutes.
    Ms. Haaland. Thank you, Madam Chair, and thank you all so 
much. Last but not least, I am so happy to be here representing 
the 1st District of New Mexico. But if you know New Mexico, I 
represent the entire state, because all of us do.
    But thank you, Dr. Dillingham. My first question will go to 
you. I am so grateful that you are here and spending the time 
with us that we need in answering all the questions that we 
have had.
    I know you know about New Mexico, because you have been 
there, but just reiterating that it is a vibrant, wonderful 
place, but we have challenges. We are 49th in the country in 
child well-being, and we have a greater uninsured rate than the 
national average. A proper census count will mean we can 
address these challenges head on.
    And this is kind of a rhetorical question. I don't know 
expect you to know the answer to every district in the country, 
but I will say it so we can, you know, get it on the record. Do 
you know how much Federal money New Mexico will lose for every 
one percent undercounted?
    Mr. Dillingham. No, Congresswoman, but I am aware of 
different estimates in different states.
    Ms. Haaland. Sure. Sure. Of course. So, we figured it to be 
$600 million over the decade. A two-percent undercount, like in 
2000, these vital programs will again be shortchanged $1.2 
billion. That translates into less money for schools, programs 
that serve Hispanic, native, and communities of colors, less 
funding for roads, and so many other services. And, of course, 
we can't afford an undercount. So, I just wanted to get that 
out there.
    Following on the line of questions from Congresswoman 
Pressley, I have been an organizer for a long time. It was 
mostly getting Native Americans out to vote. So, I know what it 
means for people to open the door and see someone who looks 
like them. And I would do that, clipboard in hand, ready to 
help the community, ready to get them to be active.
    The Census Bureau has spoken repeatedly about wanting to 
hire local enumerators, and throughout New Mexico the Census 
Bureau is behind in its applicant goal, which appears to be 
even more drastic in Hispanic communities and Indian country. 
And those, I would say, largely are rural communities where the 
unemployment rate is higher. So, I am almost feel like that 
would be a great place to find people. And I will just add that 
I have had a number of folks contact my district office and say 
they applied but never heard from anybody.
    So, the Census Bureau has known that it is behind in hiring 
these folks, and I just want to hear again--I mean, tell us 
today how you intend to make sure that there are enough people 
out there to count, to make the counts that we absolutely need. 
And there again, districts--you know, communities in my state, 
we are tired of falling behind. We are tired of not getting the 
funding that we need and deserve for our kids.
    So, just like help us to understand why we should believe 
that this is going to happen, that you are going to have the 
people to make these counts.
    Mr. Dillingham. Congresswoman, it is an excellent question, 
and we have had a very healthy debate here today, that the 
national figures are looking extremely good and we are on 
course and on track with the national figures.
    But it is very important that we meet the needs of 
particular states and particular communities within those 
states. I did see tremendous progress when I was in New Mexico, 
and when I visited the Navajo Nation, I noticed we were hiring 
people from the Navajo Nation that would help with this as 
partnership specialists. I haven't looked at your numbers, but 
we will look at your numbers, and our region there will be 
looking at your numbers to make sure we have the staffing 
available.
    If there are more recruitment efforts needed, we will make 
those efforts. We will advertise more. In other jurisdictions, 
and perhaps there, we can raise the pay rates in some 
instances, whatever it takes. And we need people from those 
communities, both for purposes of the enumeration--first of 
all, let me just say the enumeration, because of the Navajo 
language, quite frankly. And when I was visiting the Navajo 
Nation we went out and found someone on a road, unmarked road, 
who did not have connectivity, and that person did not speak 
English, only spoke Navajo, and we had a translator. So, we 
need those translation services.
    And I saw where the cables were being run to some of the 
health centers, et cetera. Those need to be done, and we 
actually were there with the Interior Department saying that we 
hope that this gets done.
    So, we are going to do everything we can, but the 
partnerships are so important. The hiring for our enumerators 
from those communities that know the languages is so important, 
for both Hispanic community and the American Indian community.
    And I think my associate director would like to give some 
more particulars on New Mexico.
    Mr. Fontenot. Yes. Congresswoman, just last week we 
authorized spending $2 million in local recruiting advertising 
for local areas that may be low or behind, that were low count. 
We are very sensitive to those specific needs, and that was 
part of our effort to encourage local advertising to encourage 
recruiting in low-count areas. So, that is a tangible example 
of what we are doing right now to get recruiting up in your 
area and in your state.
    Ms. Haaland. OK. Thank you.
    Mr. Dillingham. And Congresswoman, we will be mapping that 
in real time on the internet, that you and anyone else can 
check to see what the response rates are in those tracks in New 
Mexico, so we can focus the resources to those areas.
    Ms. Haaland. Right. And, I mean, while we are talking about 
languages, yes, there is a large Navajo population in New 
Mexico, but there are also other languages spoke as well--
Keres, Tiwa, Tewa, and Towa. So, those are all--and although 
those languages aren't necessarily written, there is a need for 
translators in various areas to make sure that there is no 
language barrier with respect to getting the right answers that 
we need. So, I would just like to mention that.
    My last question, I think--well, maybe not--but I wanted to 
followup on my colleague, Ms. Ocasio-Cortez, with the questions 
that she asked. And my office has been in touch with the Census 
Bureau. We have been told there is no part of your media plan 
directly addressing the citizenship question and undoing months 
of intimidation, because people are still afraid of that. Will 
you commit to directly confront and eliminate any confusion 
regarding the citizenship question, and that means spending 
money on ensuring that you are putting that out there so that 
people are not--don't continue to be intimidated by that?
    Mr. Dillingham. Congresswoman, we are, in fact, ensuring 
that everyone knows that, and certainly in our engagements with 
the communities. I will say that we have partners that are 
specifically promoting that avenue.
    I will also say, though, that our research indicated, in 
working with the groups, that they really are looking for 
positive reasons to respond to the census, and that rather than 
enforce the negative, if there was some negative there about 
past concerns, that we enforce the positive. So, the direction 
of our communications campaign has been a very positive one.
    Ms. Haaland. Thank you. Chairwoman, thank you for allowing 
me to go over time. I yield.
    Chairwoman Maloney. Well, thank you, Ms. Haaland. You had a 
very important line of questioning and I would like to followup 
on it. I think her line of questioning of how much would a 
state lose if you were undercounted one percent is really 
riveting, and when the number came back, $600 million, 
estimated. I would like to ask for that for each state so that 
citizens that live there know what is at stake if they don't 
fill out their form. I can't think of a better way to do that. 
I would like to request that, if I could, Doctor.
    Mr. Dillingham. Congresswoman, we will share whatever 
information we have. We usually use the figure nationally of 
$675 billion annually, that we are pretty confident in. There 
are, as you said, I think, in your opening statement, the $1.5 
trillion, some academics and researchers have developed.
    Chairwoman Maloney. But her question was if you were 
undercounted one percent, what specifically would it mean to 
that state.
    Mr. Dillingham. We can do it based on certain assumptions.
    Chairwoman Maloney. Yes, on assumptions. That would be 
great. I would love that.
    And I want to respond to Katie Porter's line of 
questioning, and really Mr. Gomez's, on these false documents 
that were sent out by the Republican National Committee. I 
literally passed a bill in 2010, that said that it should be 
illegal to put out information disguised as the Census Bureau, 
and it literally passed. So, it is against the law to do that. 
I need to revisit it and add penalties and enforcement, because 
clearly people are violating that principle.
    The census is one of the sacred things in our Constitution. 
It is one of the few responsibilities mentioned in the 
Constitution, and if our data is not correct, our policies 
aren't correct. So, it is critical to the private sector, to 
the public sector, to our states. And I would say, very 
importantly, that if you are not counted, you are not 
represented. So, we all need to work harder to make that 
happen.
    I do want to revisit an exchange that was rather rare, a 
bipartisan exchange. This has been called one of the most 
partisan Congresses in history, but we had a strong bipartisan 
exchange between Ms. Wasserman Schultz and Mr. Meadows, in 
which they expressed the desire to get, from the Bureau, the 
community partners broken down by congressional districts. I 
think that is very important. I want to underline that the 
committee staff, the staff of this committee has been asking 
for that information also.
    So, I want to ask again, Dr. Dillingham, when can we get 
that information? We all want to be like Jimmy Gomez, and the 
way to start is to know who the community partners are in our 
districts, so we can connect with them for a count, and try to 
find more.
    Mr. Dillingham. Congresswoman, late last night I was hoping 
that I could bring what would look like a large phone book with 
that list, but it had not gone through the clearance process. 
But I am informed today, at least during this hearing, that we 
can make that available.
    Chairwoman Maloney. That is great.
    Mr. Dillingham. As soon as it is made available we will 
deliver it to you.
    Chairwoman Maloney. Thank you, and we would like to get it 
out to every single Congressman.
    And finally, I would like to close, first and foremost, by 
thanking each and every one of you for your public service, for 
your dedication to working for our country, and I would like to 
close where we began, with the GAO finding that the Census 
Bureau, quote, ``faces significant risks that could adverse 
impact the cost, quality, schedule, and security of the 
count,'' end quote.
    I can see that, Dr. Dillingham, you and your team and the 
rest of the Census Bureau are really working very hard. They 
are working hard in New York. I have met with them. They are 
dedicated. But the GAO report shows that there are simply too 
many gaps--too may gaps, red flags that are out there in 
hiring, in the partnerships, in technology testing, and in 
cybersecurity. And we have to respond to these red flags that 
have been thrown up by GAO. And if these gaps are not filled, 
it is our most vulnerable, our most vulnerable citizens who 
will suffer, including children, low-income communities, rural 
communities, and minority communities. They will result in an 
undercount. They won't get the services they need or the 
representation. They will lose representation and they will 
lose funding for critical services like schools and health 
care.
    So, I urge you to do absolutely everything you can in your 
power to ensure that every person, every community is counted, 
as required by our great Constitution.
    And I would like to close with really information that I 
have to put out about how much time people can make changes. 
Everybody has five days to add to their testimony and make any 
changes that they would like to make, and to add additional 
information to their testimony.
    I want to say that this is an ongoing series, that we will 
be having numerous oversight hearings on this critical, 
important function of our government, which is under the 
jurisdiction of this committee. I used to chair the Census 
Subcommittee. Then they abolished it.
    Well, I would first like to thank all of the witnesses for 
testifying today, and without objections all members will have 
five legislative days within which to submit additional 
questions for the witnesses to the chair, which will be forward 
to the witnesses for their response. I ask all our witnesses to 
please respond as promptly as you are able.
    Thank you so much for your time, your service. This hearing 
is adjourned.
    [Whereupon, at 1:11 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
